<html>
<title> - IRS: TIGTA UPDATE, PART TWO</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                      IRS: TIGTA UPDATE, PART TWO

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2015

                               __________

                           Serial No. 114-33

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                _____________
                                
                                
                  U.S. GOVERNMENT PUBLISHING OFFICE
95-658 PDF               WASHINGTON : 2015                  
              
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="187f6877587b6d6b6c707d7468367b777536">[email&#160;protected]</a>  
             
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
        Henry Kerner, Deputy Director Oversight & Investigations
             Tyler Grimm, Senior Professional Staff Member
                        Melissa Beaumont, Clerk
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 25, 2015....................................     1

                               WITNESSES

The Hon. J. Russell George, Treasury Inspector General for Tax 
  Administration
    Oral Statement...............................................     6
    Written Statement............................................    10
Mr. Tim Camus, Deputy Inspector General for Investigations, 
  Treasury Inspector General for Tax Administration
    Oral Statement...............................................     7
    Written Statement............................................    10

                                APPENDIX

Email from Mr. Milholland, IRS on Information Retention Policy 
  Revision, submitted by Chairman Chaffetz.......................    56
Letter from Gladys Hernandez, TIGTA to Chairman Chaffetz, 
  submitted by Rep. Cartwright...................................    57


                      IRS: TIGTA UPDATE, PART TWO

                              ----------                              


                        Thursday, June 25, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:00 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, DesJarlais, Gowdy, Farenthold, Lummis, Massie, 
Meadows, DeSantis, Mulvaney, Buck, Walker, Blum, Hice, Russell, 
Carter, Grothman, Hurd, Palmer, Cummings, Maloney, Norton, 
Lynch, Connolly, Cartwright, Duckworth, Kelly, DeSaulnier, 
Welch, and Lujan Grisham.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    And, without objection, the chair is authorized to declare 
a recess at any time.
    Today's hearing is about the IRS and the targeting that has 
happened there. We have had updates from the Inspector 
General's Office, and we are here for another such update. We 
appreciate Mr. George and Mr. Camus for being here with us.
    And, as we start this hearing, I would like to walk through 
why we are here at this particular time.
    There was targeting of people who were trying to exercise 
their First Amendment rights. This was done because of their 
political beliefs.
    Dave Camp and the Ways and Means Committee did some 
exceptional work unearthing this and talking to then the IRS 
Commissioner, Mr. Shulman, about this. He had assured the 
committee, assured the Congress--which, when you talk to 
Congress, you are talking to the American people--that none of 
this targeting had ever occurred.
    That is when the Inspector General's Office started to get 
involved and they started to look at it. Later, they came back 
and provided a report, and that report happened in, I believe, 
2013.
    Now, keep in mind, when we had this information going on, 
there was a preservation order that was put in place asking and 
requiring the IRS to preserve these documents. Chairman Issa, 
then the chairman of the Oversight and Government Reform 
Committee, in August of 2013 issued a subpoena asking for this 
information and these documents.
    But then you move forward, and this is where it just sort 
of starts to get unbelievable. It stretches the imagination 
beyond comparison. And we are supposed to believe this wide 
array of facts just happened to come together in such an odd 
and peculiar way.
    Again, remember the IRS Commissioner said, ``There is 
absolutely no targeting.'' Now, when this first came to light, 
the President was actually very good on this topic. He said 
that he would work with Congress and then somehow magically 
concluded, even though the Department of Justice had not 
completed their investigation, the Inspector General had not 
concluded their investigation, the United States Congress had 
not concluded an investigation either in the House or the 
Senate, but somehow, magically, the President came to the 
conclusion that there was, ``not even a, smidgen of 
corruption.''
    Now, interesting thing about that timing, that happened to 
be Super Bowl Sunday. So Super Bowl Sunday in 2014, the 
President makes his comment. We have heard from an IRS official 
where she said, ``That's the exact same day that I remember 
looking and realizing that there were some emails missing.'' 
Now, this thing has gone on for years. It is just coincidental 
that the President is on national television, and she says and 
has told us that, ``Whoops, there's some emails missing.''
    Again, remember, for 10 months there was a preservation 
order in place; for 7 months there was a subpoena in place. We 
have been assured multiple times by the IRS that they were 
doing everything, bending over backwards, giving us all kinds 
of stats and metrics about how many emails and how many people 
were working hard on this. But the one thing we wanted to have, 
evidence, to let the facts take us wherever they may be, that 
one thing just went missing the exact same time, just within 
hours of the President making that comment.
    But what we are going to hear today makes it even more 
stunning, because what the Inspector General has evidently 
learned is that that evidence on that day that the President 
said that, on the day that the Inspector General--or the day 
that the IRS person said there are missing emails, they weren't 
missing at that point. They weren't destroyed. What we are 
going to hear from the Inspector General's Office today is that 
those emails were destroyed 30 days later. February 4, Super 
Bowl Sunday--or the 2nd, Super Bowl Sunday, pardon me, you 
know, they are missing. But they weren't missing. They got 
destroyed just about 30 days later.
    Twenty-two days after that, the IRS Commissioner, on March 
26--I remember because it was my birthday--IRS Commissioner 
comes here and testifies and tells us essentially that they 
have the emails, it's going to take years to provide them, but 
they will get us those emails, in a direct question that I had 
asked him. But they had destroyed them 22 days prior. They knew 
that there was a problem with it back in February, supposedly.
    And it wasn't until June that the IRS then confirmed or 
buried in the back of a letter to the United States Senate, to 
Senator Orrin Hatch's committee, Senator Wyden's committee, 
that, oops, we think there's a problem with the emails.
    Then the Inspector General, that catches their attention, 
so what do they do? They put a team together, and they say, you 
know what? Let's go see if we can find those emails. Because, 
remember, at this point, the IRS has had years to do it, and 
they couldn't find them. They think there's a problem.
    The Inspector General's Office puts a team together, and 
within about 2 weeks they go and find them. They show up at 
this so-called cage and go ask and go look for these emails. 
Nope, they have been sitting there the whole time. Has anything 
ever happened to those? No, nobody even asked us for them. That 
is the testimony we heard in a previous hearing.
    And we are supposed to believe all this in the context of 
an FBI investigation that is led by a max-out donor to the 
Obama administration; a contempt from Lois Lerner--the House of 
Representatives, in a very unprecedented--it doesn't happen 
very often around here--holds Lois Lerner in contempt; a 
statute that says they shall refer that to the grand jury. The 
U.S. Attorney for the District of Columbia looks at that for 10 
months and, 2 days or so, roughly, before Mr. Machen steps away 
from that job, says, ``You know what? We just think it 
shouldn't be referred,'' even though the statute says it shall. 
And that is a potential hearing and maybe something that we 
will look at later.
    But part of what we are going to find today is that there 
are some 24,000 emails, potential emails, that were destroyed. 
It is a destruction of evidence.
    We want to pursue the facts. I know there are Democrats on 
the other side of the aisle that say, hey, there is nothing 
here, let's move on, it is no big deal. Let the evidence speak. 
But when there is a destruction of evidence, that goes to a 
whole other level.
    One of the things we are going to hear from the Inspector 
General today is that five of the six sources where they could 
find this email the IRS didn't even look. And yet we have heard 
multiple, multiple testimonies from the IRS Commissioner 
saying, oh, we are working so hard, we got all these people, we 
are spending millions of dollars, it is taking all these 
resources. They didn't even look in the most obvious places, 
like her phone.
    You add this all in combination, it just defies any sense 
of logic. It gets to the point where it truly gets to be 
unbelievable. Somebody has to be held accountable.
    Imagine if this was all reversed. Right? Imagine if you 
were on the receiving end of an inquiry from the IRS, and they 
asked you for documents, and they issued you a subpoena and you 
destroyed the evidence, and you had that evidence. What would 
happen to you? You would be prosecuted to the fullest. You 
would end up in jail. And you probably should.
    That is what we are dealing with here. This should have 
been disposed of a long time ago. But we have been misled; 
there has been evidence that has been destroyed.
    And so we appreciate this hearing today. These two men who 
are here before us have done some exceptional work. They are 
supported by a great number of people on their staff who do 
very important, impartial work. And we count on their opinions.
    Let me be fair in this conclusion. Part of what they are 
going to say today is they have found no evidence that this was 
done willfully, that this was some purposeful direction from 
any one person, whether it be the White House or below. 
Understood. But the bottom line is they had the evidence, there 
was a preservation order in place, there was a subpoena in 
place, and that evidence was destroyed.
    And we are going to hear this testimony. My understanding 
is next week they are going to issue a rather lengthy report. 
We look forward to seeing that report. Given that next week is 
the Fourth of July recess, we thought it appropriate to bring 
them before us here to get their verbal comments, an 
opportunity to question them. We look forward to hearing and 
reading their report in its totality. And then we are going to 
have to figure out a way of moving forward.
    But people need to be held accountable, and we are going to 
get to the truth.
    With that, I am going to yield back and recognize our 
ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    And I am very glad that we are having this hearing. And I 
am glad that at the very end of your statement you said that 
there would be testimony, I take it from Mr. George, that these 
documents were not destroyed willfully. And I am glad you said 
that, because you had said a number of things already. And I 
think that there are many IRS employees who are working very, 
very hard, short of staff, giving it everything they got so 
that they can do their job so that we can have the resources, 
as a government, to exist.
    And I want to take a moment to thank all of those employees 
who are working so very hard.
    This Oversight Committee is now holding our 22nd IRS 
hearing--22. Some people tuning in today may not realize it, 
but this investigation is still going on. They also may not 
realize that they, the American taxpayers, have spent more than 
$20 million on this investigation so far--$20 million. The 
total does not include the millions of additional dollars spent 
by the Inspector General, who is here to testify before us yet 
again.
    And I want to thank you, Mr. George, for your hard work and 
all the work you have done in regard to this investigation.
    This investigation has squandered tens of millions of 
taxpayer dollars in a failed scavenger hunt for any possible 
evidence to support Republican accusations against Lois Lerner, 
the IRS, and the White House. More than 250 IRS employees have 
now spent more than 160,000 hours producing more than a million 
pages of documents to Congress--250 employees, who could be 
doing audits, making sure that people are paying their rightful 
share of taxes, making sure that the collection process is done 
properly, answering questions of our constituents as they try 
to make sure that they are doing the right thing. But 250 
folks, 160,000 hours.
    Yet the Inspector General will testify again today that his 
conclusions remain the same.
    The chairman said, let the facts--let the evidence speak. I 
agree with that. There is still no evidence to support 
Republican allegations that the White House was involved, that 
Ms. Lerner ordered the targeting of conservative groups for 
political reasons, or that she intentionally crashed her 
computer to conceal her emails.
    Today, the Inspector General will testify about this 
investigation into the status of Ms. Lerner's emails. 
Unfortunately, the Inspector General's Office has repeatedly 
overstated the number of, ``new,'' emails they recovered from 
backup tapes and other sources.
    In February--and we need to listen to this. In February, 
officials from the Inspector General's Office briefed our 
committee and others, reporting that they had found 80,000--
80,000--emails from Ms. Lerner, a fact that was leaked to the 
press with great fanfare, headlines--80,000.
    Then, on February 26, the Deputy Inspector General for 
Investigations testified before this committee that many of 
those emails were actually duplicates. So we went from 80,000, 
and he testified there was only 32,000. February.
    Last week, on June 16, the Inspector General's chief 
counsel sent a letter to this committee stating that the total 
number of new emails went down again, keep in mind, from 
32,000, this time explaining that only 6,400 emails, ``appear 
to not have been produced to Congress.''
    You guessed it. But today we have gone from the 6,400 only 
9 days ago, and the Inspector General will testify that the 
total has plummeted to a little more than 1,000 emails that 
Congress did not already have. Boy, that is a hell of a drop, 
from 80,000 to 1,000.
    Inspectors general are not supposed to provide speculative, 
unconfirmed, and inaccurate information to Congress. I think 
Mr. George would agree with that. They are not supposed to 
provide information they know is not credible. Yet that is what 
happened in this case. Based on this record, I do not know why 
anyone would have confidence in any of the numbers issued by 
the Inspector General.
    For those who want to cut to the bottom line, you need to 
turn to page 6 of the Inspector General's written testimony for 
today's hearing. It is buried, I got to tell you, it is buried 
now, but it says, ``A review of these emails did not provide 
additional information for the purposes of our investigation.'' 
And I hope that Mr. George will explain that.
    So, after all of this work and after spending millions of 
dollars, Republicans still have no new information to support 
their allegations.
    Some people may be wondering, if these new emails do not 
advance the investigation in any way, then what are they? What 
are they? Let me give you a few examples which the Inspector 
General provided to us this week. I didn't do this; the 
Inspector General gave them to us.
    On December 25, 2012, Christmas Day, Ms. Lerner received an 
email from eBay with an advertisement for holiday shopping 
deals. In another newly discovered email sent a few days 
earlier, on December 22, Ms. Lerner received an offer from the 
Web site flowershopping.com for some very nice bouquets. Not 
quite the smoking gun the Republicans alleged.
    The fact is that Ms. Lerner's computer crashed--and we need 
to keep this in mind--the fact is that Ms. Lerner's computer 
crashed before she was informed that IRS employees in 
Cincinnati were using inappropriate criteria to screen tax-
exempt applicants. This is not my finding. It is not mine. That 
is the finding of Mr. George, our Inspector General, in his 
original report from May 2013, more than 2 years ago.
    Today, this hearing is our 22nd on this issue--22. And I 
cannot imagine what possible reason there might be to have a 
23rd. So I hope we will finally be able to move forward and 
focus on bipartisan investigations that will help the American 
families in their daily lives.
    And to the IRS employees: I hope that all these efforts do 
not have a chilling effect on you doing the job that the 
American people have paid you to do and expect you to do and 
the job that you want to do.
    And, with that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I will hold the record open for 5 
legislative days for any member who would like to submit a 
written statement.
    Chairman Chaffetz. We will now recognize our panel of 
witnesses. We are pleased to welcome the Honorable J. Russell 
George, Inspector General at the Treasury Inspector General for 
Tax Administration; and Mr. Tim Camus, Deputy Inspector General 
for Investigations at the Treasury Inspector General for Tax 
Administration.
    We welcome you both. Appreciate your work.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. If you will please rise and raise your 
right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. Please be seated.
    And let the record reflect that the witnesses both answered 
in the affirmative.
    We would appreciate your verbal comments, and any 
additional comments or written statements will be, obviously, 
made part of the complete record.
    Do you have one statement, or are you going to combine that 
into----
    Mr. George. I have a very brief opening statement, Mr. 
Chairman, and then I'm going to defer to Mr. Camus to provide 
more substance to the facts.
    Chairman Chaffetz. Very good. Mr. George, we recognize you, 
and then we will turn it over to Mr. Camus and go from there.

                       WITNESS STATEMENTS

            STATEMENT OF THE HON. J. RUSSELL GEORGE

    Mr. George. Thank you, Chairman Chaffetz, Ranking Member 
Cummings, members of the committee. At your request, we are 
here again to update you on the progress of our efforts to 
recover former IRS Exempt Organization Unit Director Lois 
Lerner's missing emails.
    With me again is Tim Camus, TIGTA's Deputy Inspector 
General for Investigations. Tim has led this investigation, 
which was initiated on June 16, 2014. This was shortly after 
the IRS reported gaps in a production of Lois Lerner's emails, 
citing as the reason a crash of her computer's hard drive.
    One week later, as was noted, then-Chairman Wyden and then-
Ranking Member Hatch of the Senate Finance Committee requested 
that TIGTA investigate the matter, including us to, ``perform 
our own analysis of whether any data can be salvaged and 
produced.''
    This morning's testimony will provide you with information 
about the extent of our investigative efforts as well as the 
evidence we have gathered to date.
    At the outset, it is important to note that, even as we 
believe we have reached certain conclusions and determinations 
in our findings, this investigation is not yet concluded. 
Should anything of note be discovered, we will review it for 
its impact on the investigation, produce a supplemental report, 
and provide the new information, including emails, to all 
appropriate parties.
    Overall, this investigation included interviewing over 118 
witnesses, extensive document reviews, and the processing and 
analysis of over 20 terabytes of data. As a result of these 
efforts, we have determined the following:
    TIGTA was successful in recovering over 1,000 emails that 
the IRS did not produce to Congress, the Department of Justice, 
or TIGTA's Office of Investigations. We have also determined 
that, prior to our investigation and our efforts to recover Ms. 
Lerner's missing emails, the IRS did not search for, review, or 
examine the backup tapes, server hard drives, or sources that 
ultimately produced new previously undisclosed emails.
    Four hundred and twenty-two tapes that likely contained Ms. 
Lerner's emails from the years 2010 and 2011 were erased and 
most likely will never be recovered. These 422 tapes were 
magnetically erased around March 4, 2014. As was pointed out, 
this was 1 month after the IRS realized they were missing 
emails from Lois Lerner and about 8 months after this committee 
requested all documents and communications sent by, received 
by, or copied to Lois Lerner.
    As was noted, our investigation did not uncover any 
evidence that the erasure of these 422 backup tapes was done to 
conceal information from Congress or law enforcement.
    In addition, it is important to note that it is remotely 
possible that our continuing review of data from the initial 
set of 735 backup tapes could result in discovery of additional 
emails not previously provided to Congress by the IRS.
    I will now turn to Mr. Camus, who will provide a detailed 
discussion on the findings of our investigation and the search 
for the missing emails.

                     STATEMENT OF TIM CAMUS

    Mr. Camus. Thank you, Chairman Chaffetz, Ranking Member 
Cummings, and members of the full committee. I appreciate the 
opportunity to come here today to provide updated testimony on 
my agency's investigation of the Internal Revenue Service's 
production of the emails of the former Director of Exempt 
Organizations as well as our efforts thus far in recovering 
missing emails.
    Throughout our investigation, we have updated the tax-
writing and oversight committees of Congress, including this 
committee, concerning our progress in recovering emails. As the 
Inspector General noted, we are now in position to provide 
information about our investigation.
    My special agents determined that there were six possible 
sources of information in order to recover missing emails. 
Those sources are Ms. Lerner's crashed hard drive, the backup 
or disaster recovery tapes, a decommissioned IRS email server, 
the backup tapes for the decommissioned email server, Ms. 
Lerner's BlackBerry, and loaner computers that may have been 
assigned to her while her laptop was being repaired. My 
testimony will provide an overview of some of those sources, 
all of which are covered in the written testimony.
    With respect to Ms. Lerner's crashed computer hard drive, 
we determined that, on Saturday, June 11, 2011, between 5 p.m. 
And 7 p.m., Ms. Lerner's IRS laptop was more than likely in her 
office and it stopped communicating with the IRS server system.
    The following Monday, June 13, 2011, Ms. Lerner reported 
that she found her computer inoperable, and the malfunction was 
reported to the IRS information technology staff. The assigned 
IT specialist determined the hard drive had crashed and, 
following standard protocol, placed a new hard drive in Ms. 
Lerner's laptop.
    A Hewlett-Packard technician also worked on the laptop for 
other repairs. When interviewed, both technicians reported they 
did not note visible damage to the laptop computer itself. 
Because we were unable to locate and examine the hard drive, we 
do not definitively know why it crashed.
    On July 19, 2011, Ms. Lerner requested IRS IT to attempt to 
recover data from her crashed hard drive to retrieve, 
``personal information. After receiving the hard drive from the 
IRS technician, an IRS criminal investigation technician was 
unsuccessful in recovering data. IRS IT management determined 
additional efforts to recover data from Ms. Lerner's hard drive 
were not worth the expense.
    It is important to point out the IRS does not track 
individual hard drives by their serial numbers. Our 
investigation revealed that Ms. Lerner's hard drive was more 
than likely sent for destruction with a shipment of other IRS 
electronic media on April 13 of 2012. The shipment was traced 
to the UNICOR Recycling Facility in Marianna, Florida. We 
determined that this shipment of hard drives was destroyed 
using a shredder that cut the inserted hard drives into 
quarter-size pieces. According to the facility manager, those 
pieces are then sold for scrap.
    Understanding the limitation on the investigation without 
having the hard drive, our investigation did not uncover any 
evidence of sabotage of Ms. Lerner's hard drive. Our 
investigation included attempts to determine if anybody entered 
Ms. Lerner's office prior to the date and time of her hard 
drive crash. Unfortunately, those logs were erased after 1 year 
of retention.
    I will now provide an overview of our investigative efforts 
relating to the backup or disaster recovery tapes.
    On June 30, 2014, TIGTA demanded the IRS provide all backup 
tapes used for Ms. Lerner's IRS email account, specifically 
during the period January 1, 2008, through December 31, 2011. 
On July 1, 2014, the IRS identified 744 backup tapes, and TIGTA 
took possession of all of them. Initially, it appeared as 
though nine tapes may have contained valuable data, but they 
turned out to be blank.
    The IRS executive in charge of the IRS email backup program 
and his staff identified the 13 specific backup tapes that 
would contain the earliest copies of Lois Lerner's email. When 
we took those tapes to the recognized industry expert for 
electronic data recovery and extraction, they then provided 
TIGTA with Exchange database files from these tapes.
    At the conclusion of the process, TIGTA identified 79,840 
Lois Lerner emails, of which nearly 60 percent were, in fact, 
duplicates or copies of each other, leaving approximately 
32,700 Lois Lerner emails.
    As was pointed out in our February testimony, TIGTA 
compared those 32,700 emails to what the IRS has already 
produced to Congress in an effort to identify unique emails 
that had not been produced to the Congress. Due to 
technological challenges, TIGTA agents had to create a 
specialized program script that initially identified as many as 
6,400 emails that appeared to have not been previously provided 
to Congress.
    It is important to point out, at each stage when we 
identified emails, we informed the recipients of that 
information that it was early in the investigation and 
additional technical work needed to be done.
    To further refine the population, we then manually compared 
the 6,400 emails that were previously produced to the emails 
that were previously produced by the Congress--to the Congress 
by the IRS. We removed the obvious spam emails and additional 
duplicates that we found during the manual process.
    At the conclusion of this review, we determined that over 
1,000 emails that were recovered by TIGTA from backup tapes 
were not previously provided to Congress. Using the analysis of 
email transaction logs, we estimate that there may still be 
23,000 to 24,000 emails missing.
    Another potential source of emails that I will highlight is 
the decommissioned New Carrollton email server. Based on our 
review of this source, our agents identified 58 new emails not 
previously produced to Congress.
    The final source that I will discuss is the backup tapes 
for the decommissioned email server. As the IG stated, during 
our investigation, we obtained the 424 backup tapes associated 
with the decommissioned New Carrollton email server, and it is 
important to note that that server was in operation until 
approximately May 2011.
    We determined that 422 of the 424 tapes were degaussed or 
magnetically erased and, therefore, had no data on them. This 
was done by--the erasure was done by IRS employees in 
Martinsburg, West Virginia, on or about March 4, 2014, 1 month 
after the IRS realized it was missing emails.
    One of the 424 tapes contained backup files created in 
2011, but they did not pertain to Lois Lerner. Due to 
encryption or damage to the other tape, we were unable to read 
it.
    Our investigation found no evidence to prove that the 
erasure of the 422 tapes was done in furtherance of an effort 
to purposely destroy evidence or to conceal information from 
Congress and law enforcement.
    Sworn testimony and reviews of the involved IRS employees' 
emails indicate that the employees did not know about, 
understand, or follow the Chief Technology Officer's May 2013 
email directive to halt the destruction of electronic media due 
to ongoing investigations.
    Our investigation also revealed that the IRS did not put 
forth an effort to locate and preserve the backup tapes.
    Lastly, there is a remote possibility, as the IG pointed 
out, that further review of the information obtained from the 
initial set of 735 backup tapes could result in the recovery of 
additional emails that were not previously produced. We are 
also following up on a discrepancy in the count of hard drives 
that we hope to have resolved prior to finalizing our report of 
investigation.
    Chairman Chaffetz, Ranking Member Cummings, and members of 
the committee, thank you for the opportunity to discuss this 
matter, and I look forward to answering your questions.
    [prepared joint statement of Mr. George and Mr. Camus 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman Chaffetz. Thank you.
    I now recognize myself for 5 minutes.
    Mr. Camus, the IRS had these emails. And you said they 
didn't purposely destroy them, but what did they do with these 
emails?
    Mr. Camus. To the best that we can determine through the 
investigation, they just simply didn't look for those emails. 
So, for the 1,000--over 1,000 emails that we found on the 
backup tapes, we found them because we looked for them.
    Chairman Chaffetz. But there was a preservation order in 
place, correct?
    Mr. Camus. That's what we understand, yes, sir.
    Chairman Chaffetz. There was a subpoena in place some 7 
months before, correct?
    Mr. Camus. Correct.
    Chairman Chaffetz. Would you consider that these emails are 
evidence? It is what we are seeking.
    Mr. Camus. They would be--we would consider them responsive 
to the subpoena and the preservation order, yes, sir.
    Chairman Chaffetz. Is it fair to say that that is evidence?
    Mr. Camus. When we looked through our investigation, emails 
that are responsive to a subpoena may or may not be evidence. 
It depends on the content of the emails. They were certainly 
responsive to your subpoena and your preservation order.
    Chairman Chaffetz. And what did they end up doing with 
those in March of 2014?
    Mr. Camus. There were 424 backup tapes, and----
    Chairman Chaffetz. And what did they do with them?
    Mr. Camus. They erased them.
    Chairman Chaffetz. Is that destroying them?
    Mr. Camus. They have an unusual terminology at the IRS. 
When they magnetically erase them, making them useless, they 
call that ``degaussing'' them. ``Destroying'' them means they 
physical chunk them up into quarter-size chunks.
    So, on March 4, 2014, they magnetically erased all the 
tapes, but they had not destroyed them. Therefore, my agents 
were able to obtain them, and that allowed us to conduct the 
analysis of those tapes.
    Chairman Chaffetz. So the new IRS term is that they 
degaussed them. They degaussed them is what they did.
    Mr. Camus. Correct.
    Chairman Chaffetz. They had them. They were under subpoena. 
They were supposed to give them to us. The IRS Commissioner 
told us he was going to give us everything. But they degaussed 
them so that we wouldn't be able to see this.
    This just magically happened 30 days--we are supposed to 
believe this happened 30 days after the President makes his 
public comments that there is not even a smidgen of evidence? 
What a coincidence.
    Let me ask you about the potential electronic media backup 
that they could have. What happened with the Lerner loaner 
laptop? She had a loaner laptop. Did they search for the emails 
on that?
    Mr. Camus. There were actually 10 loaner laptops that were 
in service during that period of time, one of which should have 
been assigned to her as a backup. We took possession of all 10 
of those laptops that were used for that purpose, were unable 
to find one that was assigned to her.
    Chairman Chaffetz. Did the IRS look and search there?
    Mr. Camus. I'm not aware that they did, no, sir.
    Chairman Chaffetz. Did they look at her BlackBerry, her 
phone?
    Mr. Camus. They did not. We took possession of her 
BlackBerry shortly after she left the IRS in June of 2014--'13.
    Chairman Chaffetz. So the IRS Commissioner, who assured us 
that there was this dragnet out there looking for all this, 
they're working hard, thousands of efforts and millions of 
dollars going out the door, but they didn't look at her 
BlackBerry?
    Mr. Camus. Actually, we had possession of her BlackBerry as 
of June 13, 2013.
    Chairman Chaffetz. But they didn't look for it before then.
    So what about the IRS server? Did they look for it there? 
Did they look for her backups there, her tapes?
    Mr. Camus. They did not.
    Chairman Chaffetz. So you have a server; seems like a 
logical thing to do, go check that out, but they didn't look 
for it there.
    When you started to look for the emails, start to finish--
remember, they had years to get this done--start to finish, how 
long did it take for you to find the tapes when you started in 
June? I believe it was June of 2014.
    Mr. Camus. Correct. We took possession of the 740--the 
initial set of backup tapes on July 1, roughly 15 days after we 
started our investigation.
    Chairman Chaffetz. So you guys--paint the picture for me. 
They are sitting around the table, ``Hey, we should probably go 
see if we can find these emails.'' And it took you 15 days? 
That's it?
    Mr. Camus. That's it.
    Chairman Chaffetz. And what happened when you went up there 
to go find those tapes?
    Mr. Camus. We were escorted to the machine that make the 
backups, that uses the tapes and writes the emails to them. And 
when they opened the machine that made the backups, they noted 
that nine of those tapes were in an unusual configuration, 
which led the witnesses, IRS employee witnesses, to believe 
that they may contain data that had never been overwritten. So 
we were initially very excited that those nine tapes would have 
everything the investigation needed. Unfortunately, those tapes 
were defective, and they turned out to be blank.
    So then we had to go back and figure out, of the 735 tapes, 
which of those were the most likely to have contained any Lois 
Lerner email. Once we determined that, we identified 13 tapes. 
We sent those off to the industry expert, and within a couple 
months we had our first glimpse of emails.
    Chairman Chaffetz. And there were emails there.
    Mr. Camus. Yes, sir.
    Chairman Chaffetz. How many of these cages and places that 
they store these tapes are there throughout the country? How 
many of those are there?
    Mr. Camus. Generally--at one time, they were located in 
many, many locations, but the IRS was trying to consolidate 
their email processing primarily to the service centers. And 
Martinsburg, West Virginia, is one of the service centers.
    Chairman Chaffetz. So the one place where they would put 
the tapes is one place that the IRS didn't even bother to go 
look and ask.
    So my time has expired. I yield back and recognize the 
gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Mr. Camus, the degaussing, you talked about 
that. Now, did they just degauss Lerner tapes?
    Mr. Camus. No, sir. We found that they degaussed tapes 
before they degaussed the Lerner 424 tapes, and they degaussed 
tapes afterwards. And they were degaussing tapes up until about 
June of 2014.
    Mr. Cummings. Now, you mentioned a little earlier that 
there was some type of directive that they did not know about. 
Is that what you said?
    Mr. Camus. Yes, sir, I did.
    Mr. Cummings. And so you are saying that this was not 
something to obstruct our investigation or block information 
intentionally from getting to us? Is that----
    Mr. Camus. The directive was issued by the IRS Chief 
Technology Officer----
    Mr. Cummings. Right.
    Mr. Camus. --Terry Mulholland. And, in his directive, he 
was advising his management team to stop destroying--in 
essence, stop destroying electronic backups and evidence. He 
issued that directive in May 2013.
    Mr. Cummings. Uh-huh. You never answered my question, 
though. The people that actually did the degaussing, you are 
saying that they did not--they weren't intentionally trying to 
stop information from getting to us.
    Mr. Camus. As far as the--absolutely correct. The 
investigation did not show they had any intent to do that.
    Mr. Cummings. And you looked into that?
    Mr. Camus. Yes, we did.
    Mr. Cummings. And it would have been malpractice on your 
part, almost, if you didn't look into it, wouldn't it?
    Mr. Camus. It was a significant part of the investigation.
    Mr. Cummings. Very well.
    Now, Mr. George, over the past year, I believe you and your 
staff have been highly irresponsible in speculating about the 
number of new emails you recovered from Lois Lerner. I got to 
tell you, you heard in my opening statement, it should concern 
all of us because we rely very heavily on the IG's information. 
You repeatedly put out numbers prematurely without 
verification, and, time and time again, your numbers were just 
wrong--were wrong.
    In February of this year, your office briefed this 
committee and other committees in the Senate, and you reported 
recovering as many as 80,000 emails to and from Ms. Lerner. 
Then, on February 11, the headline appeared in the press, 
``Senator Ron Johnson to IRS: Why Did IG Find 80,000 `Lost' 
Emails.''
    Mr. George, you didn't find 80,000 new emails, did you?
    Mr. George. Mr. Cummings, what we did is we attempted to 
keep Members of Congress with relevant jurisdiction over this 
matter informed at every stage. And I can assure you that at 
every opportunity where I participated I made a request--I 
admonished staff that this was preliminary information, and we 
requested that they not repeat this information publicly. And, 
unfortunately, that was done.
    So, while we were in the process of refining, trying to 
keep Congress informed--because we've been criticized in the 
past for not keeping Congress informed, so we made an effort, 
at my direction, to do so. And it was during the process of 
keeping Congress informed. And, with every new discovery and 
every time my investigative staff was able to parse out, find 
duplicates, find things that were not necessarily responsive, 
the numbers changed.
    Mr. Cummings. So you recovered these emails, but you had no 
idea how many had already been turned over to Congress. And 
that's why you say it was ongoing?
    Mr. George. Precisely. We made it quite clear that there 
were--at the outset that there was a good chance that many of 
these were duplicates, had already been turned over to 
Congress, and that it would take a process not just by us but 
also by the Internal Revenue Service to help determine what had 
already been turned over.
    Mr. Cummings. So, just a few weeks later, on February 26, 
you, Mr. Camus, testified before this committee that you, found 
32,774 unique emails that were--unique emails that were backed 
up from Lois Lerner's email box. And you added that you were 
still in the process of determining how many of these emails 
had already been produced to Congress. Is that right?
    Mr. Camus. That's correct. And I think I also said if any, 
if there were any of those would turn out to be new. We were 
trying--still trying to determine that. Yes, sir.
    Mr. Cummings. So, meanwhile, the headlines continued. They 
continued. One of them reads, ``Thousands of New Emails 
Found.''
    Then, on June 16, about a week ago, your chief counsel sent 
a letter to this committee with yet another new number. And she 
wrote this, ``The recovered emails that appear to not have been 
previously provided to Congress total approximately 6,400.''
    But you didn't find 6,400 new emails. In your testimony 
today, you talk about a thousand. Is that right?
    Somebody talk to me. A thousand?
    Mr. Camus. Over 1,000, that is correct, sir, from the 
backup tapes.
    Mr. Cummings. So now we have gone from 80,000 to 1,000; is 
that right?
    Mr. Camus. That would be accurate.
    Mr. Cummings. And you talked a little bit earlier about 
23,000 still being out there possibly; is that right?
    Mr. Camus. That's correct.
    Mr. Cummings. Now, how do we now that number is accurate? I 
mean, we went from 80,000 to 1,000. That's a pretty steep drop, 
wouldn't you agree?
    Mr. Camus. I would totally agree, yes, sir.
    Mr. Cummings. So where did that 23,000 come from? Because I 
guarantee you there is going to be a headline, so we might as 
well try to get the facts to match up with the headline.
    Mr. Camus. The 23,000 number was derived when my staff, 
shortly after opening our investigation, determined that the 
Government Operations Security Center, or GSOC--Government 
Security Operations Center, or GSOC, at the Department of the 
Treasury logs every single email incident in or out of the 
IRS.gov domain. And we felt that that was a critically 
important source of information to determine the total universe 
of emails.
    So we obtained that log, and we compared it to what has 
already been produced to Congress. And that's how we came up 
with our estimate of the log activity compared to what has 
already been produced. And the estimate is between 23,000 and 
24,000 emails that we can't find.
    Mr. Cummings. And, last but not least, Mr. George, I mean, 
why--I think you already said it, but the reason why you put 
these numbers out there is because you want to keep Congress 
informed. But you see what it does, right?
    I mean, it really--I mean, I understand what you are 
saying, but that is not how it is used. I mean, I know you are 
giving it with all these caveats in red and gold and, you know, 
bold print, but you see how it ends up in print.
    Hello?
    Mr. George. No, I do.
    Mr. Cummings. So why give any number?
    Mr. George. You may recall, sir, because you were ranking 
member when the previous chairman was here and read me----
    Mr. Cummings. Oh, I remember the previous chairman.
    Mr. George. --and read me the riot act because he said I 
wasn't complying with the 7-day-letter rule pursuant to the IG 
Act. And while we strongly disagree with his interpretation of 
that provision, this was a way to try to draw some compromise 
because we know of the intense interest of Congress in this 
subject, both by committees with direct authorization over the 
IRS as well as general oversight over the----
    Mr. Cummings. In fairness to you, then, can you--is there a 
caveat that goes with that 23,000 that you're talking about?
    Mr. George. Most definitely.
    Mr. Cummings. Talk about--tell us so we will know, so that 
when the headline is written we've got all of the caveat that 
goes with it. Go ahead.
    Mr. Camus. Sir, the 23,000 to 24,000 estimate involves just 
simply email headers. That's what the transaction logs can 
record. When you take that limited amount of information--they 
have the transaction log, which is the header of the email and 
the subject line and maybe one or two features underneath--it 
does limit your ability to compare.
    But I've been assured by my staff that we went through the 
process, we checked it twice, and that it is a fair estimate of 
the email activity that went through the IRS.gov domain and 
that has not yet been produced to Congress.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Chaffetz. Will the gentleman yield?
    Mr. Cummings. Of course. Of course.
    Chairman Chaffetz. I am sensitive to the idea that we want 
to have as accurate of information as we can possibly have, but 
let's remember why we are here. There was a preservation order 
in place; there was a subpoena in place. They've never complied 
with it.
    We've had testimony from the IRS Commissioner that we would 
get all this, only to find out they have been degaussing these 
tapes. And they destroyed evidence. That is what they did. And 
that is why we continue to have this.
    We haven't even got into the content of the emails. We are 
just trying to get them so we can actually read them and figure 
out what was going on.
    Mr. Cummings. Yeah. Would the gentleman----
    Chairman Chaffetz. Sure.
    Mr. Cummings. Just one--and I am so glad you said that.
    One of the things that I have always done in this committee 
for the, my God, 20 years since I have been on this committee 
is make sure that when we are talking about employees and where 
there is an issue of their credibility, whether it is a 
possibility that they are being accused--and I am not saying it 
has happened yet--of a crime, I try to make sure that is clear. 
Because it sends a--because it has a tremendous impact on that 
individual and a chilling effect on the entire agency.
    And so one of the things I am concerned about is that, 
while there have been the degaussing, the destruction in West 
Virginia and whatever, that there was nobody who did anything 
intentionally to hinder our investigation. I want to make sure 
that is clear for no other purpose than what I just said.
    Is that right?
    Mr. Camus. That would be accurate. Our investigation found 
no purposeful destruction by the employees who put the tapes 
through the degaussing machine.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Chaffetz. And would the gentleman----
    Mr. Cummings. Of course I will yield. I will yield to you.
    Chairman Chaffetz. We've got thousands of IRS employees in 
Utah. They work hard. They are patriotic. And most of the IRS 
employees are.
    But when the IRS Commissioner Shulman comes and says there 
is no targeting and the Inspector General says there is 
targeting, when Mr. Koskinen as the IRS Commissioner comes here 
and says that we will provide you all the tapes and meanwhile 
they're degaussing them, then you can understand, we are not 
trying to pick on the rank and file here, but when you lie to 
Congress, you mislead us, we are going to hold you accountable.
    And so, yeah, our focus is on Mr. Shulman, it is on Mr. 
Koskinen, and it really does mystify why, with all these orders 
in place, a subpoena in place, these things get destroyed.
    Mr. Cummings. Mr. Chairman, my last----
    Chairman Chaffetz. Is that fair?
    Mr. Cummings. That's fair.
    My last comment, Mr. Chairman--and I appreciate this 
dialogue--is that, as you know, you and I have joined in on 
many instances where we felt that we were not getting the 
information that we are supposed to get, and I backed you up, 
and you backed me up. As a matter of fact, just yesterday you 
did it. And I appreciate that.
    So I agree. I mean, I am concerned, too, as to why things 
were not looked into. That really does concern me, and I am 
hoping that we will get some answers to that.
    Thank you very much.
    Mr. Connolly. Would the ranking member yield one more time?
    Chairman Chaffetz. We need to keep----
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Chaffetz. We need to move on. Thank you.
    I now recognize the gentleman from Ohio, Mr. Jordan, for 5 
minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    I want to walk through the timeline here real quick.
    On May 10, 2013, Lois Lerner, unprecedented, goes to a bar 
association meeting here in town 3 days before you are going to 
issue your report.
    Mr. George. Correct.
    Mr. Jordan. They wanted to get ahead of it, get their spin 
on it.
    So, right from the get-go, the IRS is not being 
transparent, not helping the American people get to the truth, 
because she goes and lies, and she says it's line agents in 
Cincinnati. May 10, 2013.
    Twelve days later, there is a preservation notice sent to 
people in the IRS. It wasn't followed, we found out. So 12 days 
later, May 22, 2013, notice that says, don't destroy any 
evidence. Right? We want all the emails, we want all the 
documents preserved.
    Is that right, Mr. Camus?
    Mr. Camus. Yes, sir.
    Mr. Jordan. Okay.
    August 2, 2013, there's a subpoena for the same documents 
they are supposed to preserve. There's a subpoena to give them 
to Congress.
    Right, Mr. Camus?
    Mr. Camus. Yes, sir.
    Mr. Jordan. February 2, 2014, the IRS learns, not just 
anybody at the IRS, the chief legal counsel learns that there's 
a problem with Lois Lerner's hard drive and emails are missing.
    Right, Mr. Camus?
    Mr. Camus. That's correct.
    Mr. Jordan. One month later, despite the preservation 
order, despite the subpoena, 1 month after the chief counsel 
knows we're missing some emails, 422 tapes containing those 
emails are destroyed.
    Right, Mr. Camus?
    Mr. Camus. That's right.
    Mr. Jordan. And 3 weeks after that, March 26, 2014, the 
head of the IRS, Commissioner Koskinen, sits right where you 
are sitting, Mr. Camus, and he tells this committee: We are 
going to get you every single email Lois Lerner has sent.
    Right, Mr. Camus?
    Mr. Camus. That's what I understand. Yes, sir.
    Mr. Jordan. So, preservation order, subpoena, ``don't 
destroy anything,'' they destroy it. Three weeks later, the guy 
in charge tells us, ``We're going to get you everything,'' and 
they've already been destroyed.
    So here's the question: How in the world could that happen? 
This is the biggest story in the stinking country at that time. 
How in the world, with the preservation order and the subpoena, 
do they destroy 422 tapes containing, according to your 
investigation, potentially 24,000 emails?
    How does that happen, Mr. Camus?
    Mr. Camus. It's an unbelievable set of circumstances that 
would allow that to happen. It is going to be fully documented 
in our report, and I'm not sure I could describe it to you in 5 
minutes.
    Mr. Jordan. The reason you can't describe it is because 
there's no explanation for that other than they were trying to 
not help the American people get to the truth. They were trying 
to hide something. They were trying to hinder the--I don't know 
any other explanation unless it's the most--I mean, it's 
unbelievable, when you have a subpoena, a preservation order, 
and you destroy 24,000 emails.
    Who is responsible, ultimately? Might it be the guy--Mr. 
Camus, might it be the guy who sat where you are sitting, the 
Commissioner of the IRS, and assured this committee and, more 
importantly, assured the American people that he would get us 
all the evidence? Might he be the guy who is responsible?
    Mr. Camus. It's possible. The management team----
    Mr. Jordan. Might it be the head of the IRS, who didn't, 
according to your testimony, didn't even look at all the 
sources for potential Lois Lerner emails? Isn't that correct; 
they didn't look at all the sources?
    Mr. Camus. They did not.
    Mr. Jordan. Might it be the guy who said this under oath in 
this committee: ``We will get you every single Lois Lerner 
email?'' Might it be that guy?
    Mr. Camus. The management team is certainly someplace to 
look.
    Mr. Jordan. But doesn't the buck stop with the guy at the 
top?
    Mr. Camus. That could be said.
    Mr. Jordan. I think it can certainly be said when he is the 
one who assured us that it was all going to happen in spite of 
this fact pattern.
    What is next, Mr. Camus?
    Mr. Camus. We're going to generate our report of 
investigation that will clearly delineate step by step how this 
occurred, where the breakdowns were, and it will provide the 
evidence that I've been describing in our--both our written and 
oral testimony here today.
    Mr. Jordan. Do you believe there is criminal activity here, 
Mr. Camus? Because it sure looks like it to the American 
people, in my judgment.
    Mr. Camus. Our investigation did not uncover any at this 
time.
    Mr. Jordan. But do you believe you might uncover that?
    Mr. Camus. There are always times at the conclusion of an 
investigation, especially when an investigation gets a public 
forum, that somebody hears something and they come forward with 
new information. But, after a very thorough investigation, we 
have not uncovered any evidence.
    Mr. Jordan. But it might have helped if we had 24,000 
emails to look at, mightn't it?
    Mr. Camus. It would've certainly been useful to have that 
material.
    Mr. Jordan. Yeah, I would think so, too.
    With that, Mr. Chairman, I yield back.
    Chairman Chaffetz. Thank you.
    I now recognize the gentleman from Pennsylvania, Mr. 
Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. George, I want to ask you about your ever-changing 
estimates of the new emails that you recovered from Mrs. 
Lerner. Your numbers started at 80,000 emails in February. Then 
it dropped to 32,000 emails at the end of February. Then, last 
week, it fell to 6,400. And, 9 days later, now, it has sunk to 
about 1,000. Your new number today is 98 percent lower than the 
first number you gave us.
    You know, this is a room where we like to hear the truth. 
There was a great Justice of the Supreme Court of the United 
States, Oliver Wendell Holmes, and he talked about the truth. 
He said, ``The truth is tough. It's not like a bubble that you 
can prick and it will explode. It's more like a rugged football 
that you can kick around all day and it doesn't lose its shape 
and it doesn't lose its form and it stays the same.'' The truth 
doesn't change.
    And when you are talking about a story that's true, Mr. 
George, it's the same the first time you tell it, the second 
time you tell it, the third time you tell it, and the fourth 
time you tell it. The truth doesn't go 80,000 and then 32,000 
and then 6,400 and now 1,000. In fact, in the last 9 days, you 
dropped from 6,400 discovered emails to 1,000.
    And I am looking at the letter dated June 16 from your 
office. This is not from you; this is from Gladys Hernandez, 
your chief counsel. Is she your chief counselor, Mr. George?
    Mr. George. Yes, she is.
    Mr. Cartwright. Okay.
    Hello, Gladys. How are you? Thanks for the letter.
    But, Mr. Chairman, I would ask for unanimous consent to 
enter this June 16 letter from Gladys Hernandez into the 
record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cartwright. And I was reading the letter, Mr. George, 
from Attorney Hernandez that says 6,400, and there is no 
caveat. There is nothing in there that says, oh, this could be 
fewer, you know, could be fewer than 6,400. There is no proviso 
in there. Doesn't say, there could be duplicates in here, stand 
by for the next number, it could be coming next week. We didn't 
hear that from you either.
    Now, this is not new to you, Mr. George. You were a 
Republican staffer for this committee. You understand that 
headlines are generated out of this committee. You understand 
how irresponsible it can be to throw out numbers with little or 
no basis, because you know they will work their way into 
headlines, and folks who like to make insinuations, like the 
previous questioner, will throw that into headlines 
intentionally.
    And there was also a question about the prior chairman 
pressuring your office--pressuring your office to come up with 
quick, fast, turnaround information. Well, news flash: The 
previous chairman is the previous chairman. He is no longer 
here. You are no longer under that kind of Republican pressure 
to turn over headline information to this committee.
    And it certainly doesn't say anything about that in Gladys 
Hernandez's June 16 letter.
    The question is: Why, why, Mr. George, would you send out 
letters and put out numbers that you hadn't fully checked, 
knowing full well, as you do, that these numbers will work 
their way into these fabulous headlines that we see every day, 
the breathless reporting of all of these huge numbers of emails 
that have been discovered? Why, Mr. George? Why do you do that?
    Mr. George. Well, first of all, I would like to point out 
that when I had the honor of serving as a staffer here--it was 
with Congressman Stephen Horn, the late Congressman from Long 
Beach, California, who admonished us--we never leaked 
information during the course of an investigation prior to a 
hearing. So I comported myself in that way. I made a request of 
staffers during the course of this investigation to do 
likewise. They did not do so. I can't control their behavior.
    Secondly, this, it was a response to a request that we 
received. In all candor, this was a transmittal letter, 
Congressman. I hadn't seen this before. It was simply a 
transmittal letter from our counsel to the committee. So I 
would have the--I request the opportunity to review this and to 
respond precisely.
    But thirdly----
    Mr. Cartwright. You've heard of Oliver Wendell Holmes, 
haven't you?
    Mr. George. I went to Harvard Law School, yes.
    Mr. Cartwright. And you agree with his statement about the 
truth, don't you?
    Mr. George. I agree.
    Mr. Cartwright. And don't you agree that when you keep 
changing your story the way your office has, you lose your 
credibility and people stop believing that you're telling the 
truth?
    Mr. George. Congressman----
    Mr. Cartwright. I yield back, Mr. Chairman.
    Chairman Chaffetz. Gentleman yields back.
    Recognize the gentleman from Michigan, Mr. Walberg, for 5 
minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    And thanks for the panelists for the work that you've done. 
It's been intimidated; it has been held up; it has been 
frustrated all across the many, many months we've been dealing 
with it.
    I would also start with a quote from a famous Chief Justice 
of the Supreme Court as well as one of the most famous trial 
lawyers and former Members of Congress, Daniel Webster, and 
Justice Marshall, who both said, ``The power to tax is the 
power to destroy.'' I'm not sure they were talking about 
degaussing, but they were certainly talking about the power of 
a taxing entity to impact the lives of people. And that's 
something we've had here.
    I also want to remind our whole committee again, as we talk 
about numbers and we talk about degaussing, and we talk about 
tapes and we talk about hard drives, remember, the fact of the 
matter is that Lois Lerner sat at that very table and pled the 
Fifth. And what does the Fifth Amendment refer to? The right to 
not self-incriminate. That says to me, Lois Lerner was worried 
about the fact that what she had done could be construed as 
illegal at the very least, and she chose not to share the truth 
with us. She didn't kick the football; she walked off the 
field. And so we're left with trying to deal with tapes that 
have been degaussed--oh, sorry. I understand it. My people 
understand it--they've been destroyed.
    When Congress began its investigation on May 2013, the IRS 
issued a preservation notice to ensure the documents relevant 
to the investigation were not destroyed. Is that not correct?
    Mr. George. That is our understanding.
    Mr. Walberg. We want to rehearse this again to, cut through 
the clutter to get back to what the situation is. Who sent out 
this preservation notice?
    Mr. Camus. That was the chief technology officer, Terry 
Milholland.
    Mr. Walberg. So based on your investigation, what efforts 
did the IRS, Terry Milholland or anyone else, make to ensure 
that the CTO's email notice to cease routine destruction of 
electronic records was actually followed by low-level 
employees?
    Mr. Camus. There was very much confusion, and I'm not 
certain that there was appropriate management oversight of that 
directive.
    Mr. Walberg. Well, who was responsible for the preservation 
of these emails?
    Mr. Camus. Every IRS manager, in my view.
    Mr. Walberg. Every IRS manager. Every IRS. Plenty of them 
could've followed this out.
    Has anyone been reprimanded for emails being destroyed 
despite the preservation notice?
    Mr. Camus. Inasmuch as we're finishing our investigation, 
we have not provided the IRS with the results of what we found 
during our very thorough investigation in these matters.
    Mr. Walberg. But they know the law relative to the 
preservation notice? They should know it.
    Mr. Camus. I believe they do, and they will get our full 
report.
    Mr. Walberg. And we don't know of any reprimand that 
they've taken.
    If these instructions had been followed, would more Lois 
Lerner emails be available to Congress for investigation?
    Mr. Camus. I believe there would be.
    Mr. Walberg. That's a fact of the matter.
    How many potential sources for recovering Ms. Lerner's 
emails existed for the IRS?
    Mr. Camus. We believe there were six.
    Mr. Walberg. Namely?
    Mr. Camus. The hard drive would have been a source, 
BlackBerry source, backup tapes a source, server drives a 
source, the backup tapes for the server drives, and then 
finally, the loaner laptops.
    Mr. Walberg. How many of these six did the IRS search?
    Mr. Camus. We're not aware that they searched any one in 
particular. They did--it appears they did look into initially 
whether or not the hard drive had been destroyed, but they 
didn't go much further than that.
    Mr. Walberg. They found out it had been destroyed. But the 
other six we don't know that they even attempted a search on 
it.
    Did the IRS personnel ever state a reason why they did not 
attempt these alternative methods of retrieving Lerner's 
missing emails?
    Mr. Camus. They believed at a high level that attempting to 
get emails off of the backup tapes was a futile attempt. But 
they did not determine that the very backup tapes that would 
have contained the emails still existed, and they would have 
yielded the very emails everybody's been interested in.
    Mr. Walberg. They wouldn't do this with a common citizen 
taxpayer, would they? I'm not asking you to answer that one. 
I'm suggesting that they would not have followed their pattern 
of course with Lois Lerner's tapes and email records with any 
of us in the room.
    Given the IRS's failure to attempt the methods TIGTA used 
to recover the missing emails, would you characterize IRS 
efforts as extraordinary?
    Mr. Camus. I would not.
    Mr. Walberg. The power to tax is the power to destroy.
    I yield back, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman.
    Recognize the gentleman from Virginia, Mr. Connolly, for 5 
minutes.
    Mr. Connolly. Yes. And I would also remind my friend 
another quote from a very distinguished Justice Supreme Court, 
Oliver Wendell Holmes, ``Tax is the price we pay for 
civilization.'' Taxes aren't always bad things.
    Mr. Walberg. Would my friend yield back?
    Mr. Connolly. Real briefly.
    Mr. Walberg. Real briefly. I agree with you. We're not 
talking about that. We're talking about destroying people's 
lives.
    Mr. Connolly. Well, I don't know that any lives have been 
destroyed. We can assert it; that doesn't make it true. But 
thank you.
    Mr. Camus, we submitted questions to you on March 4 after 
the last hearing. The committee informed you and Mr. George, 
those answers were due on March 18. We were--I find it very 
interesting that we're complaining about responsiveness. Let's 
start with the IG's office. Because if you're not pure as 
Caesar's wife, you have no credibility and no business, 
frankly, testifying about somebody at IRS. So you need to be 
punctilious about your responsiveness.
    And I heard Mr. George say, oh, my goal is to be responsive 
to Congress. Your questions, Mr. Camus, we were informed, were 
ready for delivery on March 27; nine days late, but ready. Is 
that correct?
    Mr. Camus. I diligently worked on the questions, I prepared 
them, and I submitted them for review.
    Mr. Connolly. And why was there a 3-month delay between the 
completion of your answers to those questions and delivery to 
this committee 2 days ago?
    Mr. Camus. I don't know.
    Mr. Connolly. Would you call that responsive?
    Mr. Camus. I don't know the circumstance for nondelivery.
    Mr. George. I mean, I do, and I can give that to you.
    Mr. Connolly. I'll get to you in a second, Mr. George. I 
promise. Don't worry. I won't leave you out.
    Okay. I just find it interesting, Mr. Camus, because I 
would think that would be a pretty declarative answer one way 
or another, responsive or not.
    Let me ask you this: In any way, shape or form, were your 
answers with that delay changed or suggestions made to be 
changed in order to conform to somebody else's answers?
    Mr. Camus. No, sir.
    Mr. Connolly. So to your knowledge, they remain unchanged 
but just delayed?
    Mr. Camus. That's correct.
    Mr. Connolly. Mr. George, why did you delay this process? 
Because we only got your answers 2 days ago, and I just heard 
you assure the chairman in this committee your commitment to 
making sure Congress has everything it wanted, except from you.
    Mr. George. Yeah. Well----
    Mr. Connolly. Why did we have to wait 3 months for your 
answer, and why did you delay Mr. Camus' answers?
    Mr. George. Well, because the request came to both of us--
--
    Mr. Connolly. Yes.
    Mr. George. --in a single document, so we wanted to respond 
in a single document, one; two, as pointed----
    Mr. Connolly. Excuse me. Even if it is delayed by 3 months?
    Mr. George. Well, the delay, sir, and I have to beg your 
indulgence, and I've expressed this with Chairman Chaffetz, my 
mother had a severe stroke and is in intensive care unit for 
now 2-1/2 months nearing death. And so yes, I've had to put 
aside some of my professional responsibilities while attending 
to her, my elderly mother, who is States away, and I have that 
primary responsibility, sir.
    Mr. Connolly. I'm very sympathetic. I have----
    Mr. George. That is the----
    Mr. Connolly. I have elderly parents too who suffer health 
issues.
    Mr. George. That is the explanation. And my apology to the 
committee for the delay.
    Mr. Connolly. But could that not have been communicated to 
the committee? We had nothing but silence, Mr. George.
    Mr. George. Well, there are certain parts of my life that I 
don't want communicated.
    Mr. Connolly. Well, you could have said, because of 
personal concerns, I can't do my job for 3 months, with respect 
to responding to the----
    Mr. George. But, there were also reviews to make sure that 
Privacy Act and 6103 issues were addressed, so there were a 
combination of factors. But the primary one was my personal 
family situation.
    Mr. Connolly. Well, again, I'm always sympathetic to 
somebody's personal circumstances.
    Mr. George. I appreciate that, sir. Thank you.
    Mr. Connolly. But there is a concern, frankly, as you know, 
and Mr. Cartwright and I filed a complaint about you with 
respect to your behavior throughout this entire thing. And the 
latest delineation of email numbers that Mr. Cummings provided 
is very troubling in terms of credibility.
    You met with Republican members of the staff without 
Democrats present. You talked to the chairman and took 
direction from the then-chairman without consulting with the 
Democrats, even though standards of conduct for IGs 
specifically say you should avoid that; that you should always 
have not only the appearance but the reality of nonpartisanship 
so that your credibility and integrity is, in fact, adhered to.
    And from our point of view, there are real questions about 
whether you actually lived up to that standard. And you've 
indicated that your own answer to CIGIE, which investigated 
you, or supposedly investigated you, exonerated you, but you've 
refused to provide that answer to the committee. Another 
evasion.
    So we're having a hearing ironically about whether IRS was 
transparent, whether there was any attempt to prevent the 
release of relevant material requested by the committee, while 
you, yourself, have, in fact, been guilty of the same thing. 
You have not been transparent. You have refused to provide 
information. You have been unresponsive for whatever reason. 
And you held up Mr. Camus' answers in the process, which at 
least could've partially satisfied the committee demand.
    And I renew my request to you. You claim that it's a 
violation of your rights under the Privacy Act, but if indeed 
your answer exonerated you before CIGIE, why would you want to 
keep it secret? Why wouldn't you share it?
    Chairman Chaffetz. The gentleman's time is expired.
    I want the gentleman to know that Mr. George had informed 
the committee, had informed me that he was dealing with a 
personal situation. It's hard to communicate that with 
everybody en masse, but I was aware of that.
    Mr. Cummings. Would the chairman yield?
    Chairman Chaffetz. Sure.
    Mr. Cummings. And I just want the gentleman to know too 
that he did inform me on more than one occasion that he was 
going through this. And certainly, Mr. George, we all wish your 
mother well. But you definitely kept this side informed also. 
Thank you.
    Mr. George. Thank you.
    Chairman Chaffetz. Thank you. Sorry you are going through 
that.
    As the chairman, I'd like to inform you that there is a 
vote on the floor. It is my intention to recognize Mr. 
DesJarlais for 5 minutes, then we will recess. There are three 
votes on the floor. Upon recess, we will not reconvene again 
before 10:45, sometime after that, a few minutes after the last 
vote, then we will resume. But we will have to adjourn briefly.
    But for now, let's recognize the gentleman from Tennessee, 
Mr. DesJarlais for 5 minutes.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    I thank the gentleman for being here again today.
    Mr. George, how long has this investigation been ongoing?
    Mr. George. At least since--well, it depends upon how you--
oh, the investigation of the missing emails as opposed to the 
overall issue of the tax exempt organizations?
    Mr. DesJarlais. Both.
    Mr. George. So it was, 2 years? Yeah, so since May of 2013, 
the exempt organizations and since roughly June of 2014 the 
exempt missing emails.
    Mr. DesJarlais. Okay. And apparently, according to the 
ranking member, we've had 22 hearings now and we've spent $20 
million. And sometimes it's hard to remember what the focus is 
of why we're even here because it's drug on so long, and it's 
drug on so long because the IRS has not been cooperating with 
us.
    And also, I've got to wonder as investigators like 
yourself, how hard it is to conduct an investigation when the 
President informed you that there's not a smidgeon of 
corruption. Does it make it difficult to conduct an interview 
when our Commander in Chief, the leader of this country, the 
leader that was benefited by the fact that the IRS admittedly 
targeted conservative groups that were going to work against 
his presidency, has informed you that there's not a smidgeon of 
corruption? Does that make it difficult for you?
    Mr. George. Well, I won't address the President's comments, 
Congressman. I will say that there's a drip, drip, drip here 
because with every new uncovery of information, whether it's 
from testimony or interviews to the finding of backup tapes, 
this extends the course of the investigation. And so that is 
why this has--it's still ongoing.
    Mr. DesJarlais. Okay. And there was a comment about the 
cost of the hearings and number of hearings. Watergate had 250 
hours of aired testimony gavel to gavel. We have not approached 
that yet. Watergate, in today's terms, cost a lot more than 
this. And I think we have an incident here that's every bit or 
more serious than Watergate. So it disheartens me that we have 
such opposition to these hearings. Eventually, democracy 
affects all of us, regardless of party, and maybe at some point 
we'll get to the bottom of something that will matter to people 
on the other side of the aisle.
    There's been a lot of comments today about the numbers, the 
numbers of emails you're throwing out. There are 10,000, 
30,000, and that you're being criticized for that. As 
investigators, how many emails does it take to incriminate 
somebody of wrongdoing?
    Mr. George. One.
    Mr. DesJarlais. One. Yeah, one email. So what does it 
matter how many numbers are being thrown out there? We're 
trying to get to the truth. So I commend you guys for working 
hard and doing that.
    Who at the IRS was overseeing the destruction of the backup 
tapes, or who was in charge of that?
    Mr. Camus. There was a group of individuals, but the first-
line manager was a manager out of West Virginia named Charles 
Stanton.
    Mr. DesJarlais. What was Kate Duval's role?
    Mr. Camus. Kate Duval was the chief counsel to the 
Commissioner, and she was in charge of the email production to 
the Congress.
    Mr. DesJarlais. Okay. Did you interview Ms. Duval?
    Mr. Camus. We did.
    Mr. DesJarlais. And was she aware that there was a problem 
with the collections of the emails?
    Mr. Camus. Yes, she was.
    Mr. DesJarlais. Okay. And what was her response?
    Mr. Camus. Well, when they realized--because she was 
running the effort at that time to gather the emails to produce 
them--when they realized there was a hole in their production, 
she's the one that informed the Treasury that they were having 
difficulty with the emails. And she is also the one that 
informed the Commissioner that they were having troubling 
gathering the emails.
    Mr. DesJarlais. Was she held accountable for the fact that 
they're missing, that these have been destroyed?
    Mr. Camus. Ms. Duval, I understand, is no longer at the 
Interval Revenue Service. And at the conclusion of our 
investigation, the IRS will get our report, and I believe they 
will take appropriate action based on what we found in the 
report concerning individuals.
    Mr. DesJarlais. Okay. Do you feel that in your 
investigation to this point, knowing that the IRS has 
admittedly targeted conservative groups, they admitted 
wrongdoing. Lois Lerner came here and sat in your chair. She 
took the Fifth. She didn't want to incriminate herself. Do you 
agree with the President's statement that there's not a 
smidgeon of corruption going on in the IRS?
    Mr. Camus. It's difficult to agree with a broad statement 
at any time. Our job in the Office of Investigations is to root 
out corruption at the IRS. So whether it's this matter or any 
other matter, we take great pride conducting thorough 
investigations, and if there is corruption, we're determined to 
find it and root it out.
    Mr. DesJarlais. All right. Well, I certainly appreciate the 
work that you're doing, and I know the American people 
appreciate the work that you're doing. This was an assault on 
democracy, the Democratic process, and the way elections are 
conducted, so I commend you two gentlemen.
    And I yield back.
    Chairman Chaffetz. Thank the gentleman.
    There are votes on the floor. The committee will stand in 
recess. We will reconvene no sooner than 10:45, but honestly, 
probably going to be a little bit longer.
    Mr. George. No problem, sir.
    Chairman Chaffetz. We stand in recess.
    [Recess.]
    Chairman Chaffetz. The Oversight and Government Reform 
Committee will come back to order.
    We were in the midst of the hearing regarding the IRS and 
appreciate the inspectors general being with us here today.
    There was a point of clarification, I believe, Mr. Camus 
wanted to make. I'd like to recognize him to clarify a previous 
statement.
    Mr. Camus. Thank you, Mr. Chairman.
    When Dr. DesJarlais asked me the name of the manager at the 
IRS at the time the tapes were erased or destroyed, I shared 
the name Charles Stanton. Charles Stanton wasn't actually the 
manager at that time. We're working on getting that name. We'll 
provide it for the record. Stanton has actually been very 
cooperative.
    Chairman Chaffetz. Thank you. Appreciate the clarification.
    Mr. Camus. Thank you, sir.
    Chairman Chaffetz. We do.
    We now recognize the gentleman from South Carolina, Mr. 
Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. George, I want to start by encouraging you to take 
heart when the other side makes ad hominem attacks. It's 
generally because they have neither the facts nor the law nor, 
frankly, logic. So I know it is difficult for you to sit there 
and absorb ad hominem attacks, but the reality is that is kind 
of the last vestige of folks who have nothing else left to 
argue.
    I'm going to ask a series of questions, and Mr. Camus, or 
Mr. George, either one can answer them. And I'm a simple man, 
so I'm going to start kind of simply. With respect to the IRS 
investigation/targeting investigations, were there at some 
point subpoenas in place?
    Mr. George. There were.
    Mr. Gowdy. Okay. Were there requests to preserve evidence 
in place?
    Mr. George. Yes.
    Mr. Gowdy. Were there ongoing congressional investigations?
    Mr. George. There were, sir.
    Mr. Gowdy. Were there ongoing IG investigations?
    Mr. George. Definitely.
    Mr. Gowdy. And purportedly, there was an ongoing DOJ 
investigation, although we've seen scant evidence of that, at 
least that's the allegation, right?
    Mr. George. Yes. And I'll ask Mr. Camus to further respond 
to that.
    Mr. Camus. That's correct, sir. There is an ongoing DOJ 
investigation.
    Mr. Gowdy. Okay. So you have subpoenas in place. You have 
requests to preserve evidence in place. You have ongoing 
congressional investigations. You have ongoing IG 
investigations. And you may very well have an ongoing DOJ 
investigation, all of which leads me to ask, what does it mean, 
``Do not destroy/wipe/reuse any of the existing backup tapes 
for email?'' What does that mean?
    Mr. Camus. That means do not destroy, rewipe or do anything 
to that material, as it could be evidence or of import.
    Mr. Gowdy. Oh, so it means exactly what it says?
    Mr. Camus. Yes, sir.
    Mr. Gowdy. There's no hidden meaning?
    Mr. Camus. No, sir.
    Mr. Gowdy. Even I can understand that sentence. Don't do 
it, right? I mean, you can call--you can use fancy words like 
degauss if you want to, but don't destroy, wipe, reuse any of 
the existing backup tapes.
    Now, was that done?
    Mr. Camus. Yes, sir.
    Mr. Gowdy. Was it done after any of the following were in 
place: Subpoenas, requests to preserve, ongoing congressional 
investigations, ongoing IG investigations, or purported DOJ 
investigation?
    Mr. Camus. Yes, sir, it was done March--on or about March 4 
of 2014, well after the commencement of all those activities.
    Mr. Gowdy. Wow. Now, I want to ask you about an individual 
in a minute, but I want to ask you this: Sometimes things can 
be done accidentally. Let's go ahead and rule that out. Are we 
talking about just kind of a misstroke on a keyboard? Is that 
what causes these things to disappear and be wiped? You just--
you type in a word and hit the wrong key? Does that do it?
    Mr. Camus. No, the destruction that we're talking about 
required the employees involved to actually pick up tapes and 
place them into a machine, turn the machine on that 
magnetically destroyed and obliterated the data.
    Mr. Gowdy. Well, sounds like it'd be hard to accidentally 
do that.
    Mr. Camus. That's correct.
    Mr. Gowdy. All right. So we can rule out accident. That 
leaves negligence or intentional, willful, wanton. Do you know 
whether it was just sheer negligence, incompetence, or was it a 
higher level of scienter or mens rea?
    Mr. Camus. Our investigation has shown that the two 
employees who physically put those tapes into that machine are 
lower-graded employees at the Martinsburg, West Virginia, 
computing center. They continued to erase media throughout the 
period of time; as a matter of fact, they did not stop erasing 
media, including these 424 tapes, until June of 2014. When 
interviewed, those employees said that, ``Our job is to put 
these pieces of plastic into that machine and magnetically 
obliterate them. We had no idea that there was any type of 
preservation from the chief technology officer.''
    Mr. Gowdy. Was Mr. Koskinen in charge of the IRS at the 
time?
    Mr. Camus. Yes, sir.
    Mr. Gowdy. I want to ask you about another name. Have you 
ever heard the name Kate Duval?
    Mr. Camus. Yes, sir.
    Mr. Gowdy. Who is Kate Duval? Because I think I've heard 
that name before too.
    Mr. Camus. Kate Duval is the chief counsel representative, 
the IRS's counselor, concerning the production issues to 
Congress. So she was----
    Mr. Gowdy. Oh.
    Mr. Camus. --the lawyer in charge of making sure that 
counsel made production to Congress.
    Mr. Gowdy. So she's in charge of making sure that emails 
and other matters get produced?
    Mr. Camus. Yes, sir.
    Mr. Gowdy. Is she still with the IRS?
    Mr. Camus. She is not. I don't recall the date that she 
left, but she is no longer----
    Mr. Gowdy. Do you know where she is now?
    Mr. Camus. --part of the Internal Revenue Service.
    I can get that information for you.
    Mr. Gowdy. No, I know where she is now. She's at the 
Department of State in charge of their email productions. Wow.
    I yield back.
    Chairman Chaffetz. Thank the gentleman.
    We'll now recognize the gentleman from Kentucky, Mr. Massie 
for 5 minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    I want to ask about the date that Lois Lerner's hard drive 
failed, because he gave us more specificity here today, and I 
appreciate that. Is it--what day did her hard drive fail?
    Mr. Camus. We believe it failed on June 11, which is a 
Saturday, between 5:00 and 7:00 p.m.
    Mr. Massie. So this hard drive failed conveniently. Do you 
know where it was when it failed?
    Mr. Camus. We believe, based on log activity, that the 
laptop was in her office at the time that the hard drive 
failed.
    Mr. Massie. So on a Saturday, it was just sitting there and 
it just sort of failed on its own, on a Saturday, on June 11?
    Can you tell if there was any computer activity at the time 
that it failed from log activity?
    Mr. Camus. There was--we were unable to determine if a 
program was in place that would remove another program from the 
computer. It was a silent deployment, if you will. That 
deployment was scheduled to occur between two dates, but we 
weren't able to definitively say there was any computer 
activity on that computer on July--or I'm sorry, June 11, 
2013--or 2011, when it was destroyed.
    Mr. Massie. So here's what I find interesting. On June 3, 
the chairman of Ways and Means sent a letter to Doug Shulman, 
who was a Commissioner of the IRS at the time. Are you familiar 
with that letter?
    Mr. Camus. I'm not.
    Mr. Massie. June 3, just briefly says--it's chairman of the 
Committee on Ways and Means, and this was sent by the--Mr. 
Camp, the chairman at the time. He was concerned that the IRS 
appears to have selectively targeted certain taxpayers who 
engaged in a political speech. Not only does this threaten 
political speech, it casts doubt on the IRS credibility. He 
sent that on June 3, which is--I looked it up on the calendar--
a Friday. So it's likely they didn't receive it at the IRS 
until Monday, which would have been June--what would that make 
it?--6th.
    Mr. Camus. 6th.
    Mr. Massie. So here we have June 6 they probably received 
this letter, and her hard drive magically fails on its own in 
her office on a Saturday, 5 days later. Now, before we thought 
there was a 10-day difference, but now we realize there's a 5-
day difference. This is just an amazing coincidence to me. I 
think it's more than a coincidence.
    I want to put up on the screen a directive that was sent 
out by the chief technology officer of the IRS, if we could get 
that on the screen. And this is the directive that went out to 
managers--is that correct?--telling them not to erase data?
    Mr. Camus. Correct.
    Mr. Massie. This directive went out on May 22, 2013. When 
were the tapes erased at the IRS?
    Mr. Camus. On or about March 4, 2014.
    Mr. Massie. So about 8 months later.
    And is this--if we look at the highlighted part on here, it 
says, ``Do not destroy/wipe/reuse any of the existing backup 
tapes for email or archiving or other information from IRS 
personal computers.''
    Did that go to managers that were at the facility where the 
tapes were erased?
    Mr. Camus. It did. And there's a lot of discussion that we 
captured in our investigation by capturing the manager's 
emails, over what Milholland meant by this directive. So 
there's some back and forth.
    Mr. Massie. So what did they say they thought it meant when 
you talked to them?
    Mr. Camus. They believe that it pertained to hard drives 
and personal computers. They over-interpreted the directive, 
which was basically preserve all electronic media.
    Mr. Massie. So they thought it just applied to hard drives 
and personal computers and that's what they told you. But 
doesn't it clearly say, ``Do not destroy/wipe/reuse any of the 
existing backup tapes?
    Mr. Camus. It does.
    Mr. Massie. So if they didn't do this willingly or 
knowingly or purposely, this is basically incompetence, isn't 
it?
    Mr. Camus. One could come to that conclusion, yes, sir.
    Mr. Massie. Either that or they can't read?
    Mr. Camus. One could come to that conclusion. Like I said, 
there's--you'll see in our report of investigation, we captured 
a lot of the email traffic back and forth between employees as 
they were discussing the impact that this has on their 
operations out there and destroying things.
    Mr. Massie. Do these people still work for the IRS?
    Mr. Camus. Yes.
    Mr. Massie. Why is that, if they're this incompetent?
    Mr. Camus. The Internal Revenue Service is going to get a 
copy of our report of investigation when we're through, and I 
imagine that they will look at it and they will take 
appropriate action.
    Mr. Massie. I thank you.
    And I yield back, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman.
    We will now recognize the gentleman from Florida, Mr. 
DeSantis, for 5 minutes.
    Mr. DeSantis. I thank the chairman.
    I tell you, my friend from Kentucky, it may be 
incompetence, or it may just be a willful disregard of the 
preservation order and a willful disregard of the subpoena that 
this committee issued in August of 2013. And so those are two 
very, very important actions.
    And yet, Mr. Camus, in early 2014, your report demonstrates 
422 backup tapes were destroyed by the IRS, correct?
    Mr. Camus. That's correct.
    Mr. DeSantis. So we have clear guidance, mandatory 
guidance, and yet they destroyed the tapes. So if a taxpayer 
had been asked by the IRS in an audit to produce certain 
documents to justify their tax returns, and they just decided 
that some of the things they didn't want to produce or claim 
that they were destroyed or destroy them, something tells me 
that would not fly. And so you have an agency here that's 
operating under a different standard than they impose on the 
American taxpayer, and that's unacceptable.
    June 13, 2014, John Koskinen, in front of--his letter to 
the Senate, in front of this committee, later confirmed that 
the backup tapes with Lois Lerner's email no longer existed. 
And yet, your report shows that by doing basic due diligence, 
you found 13 backup tapes that had Lois Lerner's emails on them 
after he made that statement, correct?
    Mr. Camus. That's correct.
    Mr. DeSantis. And not only did you find the backup tapes, 
you found approximately 1,000 at this point unique emails from 
or to Lois Lerner that the IRS never produced to this 
committee; is that accurate?
    Mr. Camus. Yes, sir, that's accurate.
    Mr. DeSantis. And Commissioner Koskinen--I remember sitting 
here. The chairman, our current chairman when he was one of the 
regular members, he pressed Koskinen: ``Are you going to give 
us all of Lois Lerner's emails?'' Finally, Koskinen says, 
``Yes, we will give you all of Lois Lerner's emails.''
    Now, the IRS claimed, Mr. Koskinen claimed that the IRS 
went to, ``great lengths and made extraordinary efforts to 
recover her emails.'' When Commissioner Koskinen said that the 
backup tapes no longer existed that they confirmed, the IG, 
what did you do to verify that? You drove out to the facility 
in West Virginia and asked for the tapes, correct?
    Mr. Camus. That's correct.
    Mr. DeSantis. Now, do you consider that to be an 
extraordinary effort?
    Mr. Camus. That's due diligence.
    Mr. DeSantis. Basic due diligence. I'd say the bare minimum 
of due diligence.
    And so for Commissioner Koskinen, you go to great lengths, 
above and beyond the call of duty, and you don't even look 
where the backup tapes are found. That doesn't sit right. And I 
think the problem is, and I think we've seen this with 
Commissioner Koskinen's attitude that he really has had a 
contempt for this entire investigation, he doesn't think the 
IRS should be bothered with it; he's dismissive of the 
misconduct that occurred by targeting Americans based on their 
view points; and he's not done anything to really meet the 
standards that he's laid out here by getting us everything that 
we've asked for. And, of course, the proof is in the pudding, 
because this has dragged on and on and on.
    So I think that the American people are left with a sense 
of major frustration. I think that they don't like to have a 
situation where there are all these rules and regulations 
they've got to follow, but then somehow when things are 
subpoenaed by a government agency, government people can then 
go ahead and destroy the documents, destroy the tapes, destroy 
the emails. And this is not the only context the IRS, 
throughout our whole government, where that happens. There's 
other things that have been subpoenaed as we know that have 
been destroyed.
    So this is just simply unacceptable. And I think that there 
needs to be accountability for it. I mean, if you're destroying 
backup tapes that were under subpoena and that your own agency 
said needed to be preserved, that's either a willful disregard 
of what was required or a level of incompetence that is so 
stunning that you clearly are not fit to serve. And so I think 
either way, those individuals need to be held account.
    And I don't think you can have an IRS Commissioner come in 
front of the Congress, testify under oath that he has confirmed 
that all the backup tapes have been destroyed, the emails are 
unrecoverable, when he did not even do the basic due diligence 
that the IG did by going out to the facility in West Virginia 
where all the backup tapes are and getting those backup tapes 
and looking.
    And the thing is is, you know, there were 13 backup tapes 
with Lois Lerner's emails. You also found, what, over 700 that, 
at the time, you didn't know what was on them. You had to 
check. And so there would be no way to know that it was only 
13. And so there were even more backup tapes that were there 
that were going to cover the time period and could have been 
relevant before you did it.
    So, Mr. Chairman, thank you for holding this update, and I 
know this is just the beginning of our efforts to hold this 
agency accountable on behalf of the American people. And I 
yield back.
    Chairman Chaffetz. Thank the gentleman.
    Will now recognize the gentleman from Alabama, Mr. Palmer, 
for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. George, much has been made about the number of emails 
that have been recovered. I would agree with some of the 
members who have emphatically asserted that numbers matter. My 
question to you is, how many emails that contain evidence of 
wrongdoing do you need to recover in order to pursue justice? 
Is it 10,000? Is it 1,000? One hundred? Would one be enough?
    Mr. George. One would be enough, sir.
    Mr. Palmer. So whether you find 1,000 emails or 100 emails 
or 10, it's really--the only relevant point here is that you 
and your office are doing your best. You're exercising due 
diligence to pursue justice. And if there's one email or one 
document that proves wrongdoing, it would justify the effort. 
Is that--would you agree with that?
    Mr. George. I agree 100 percent.
    And I would beg your indulgence here, Congressman, because 
the staff of the Office of Investigations is doing just 
tremendous work almost around the clock, over weekends and over 
holidays, in order to address this matter, and to locate that 
potential one email or if there were more or if there aren't 
any, to make a final conclusion as it relates to this.
    Mr. Palmer. I think I can speak for the staff--for this 
committee--I don't think I'm out of line in saying this--that 
we are very, very grateful for the work that your office does 
and the other IGs that--and how you pursue it with excellence 
and professionalism on behalf of the American people.
    Mr. George. Thank you.
    Mr. Palmer. Mr. George. I don't remember, I think you were 
one of the 47 inspectors general who signed a letter to this 
committee raising concerns about Federal agencies' lack of, I'd 
say, forthcoming with evidence and other documents. Is that 
correct? Did you say that?
    Mr. George. I was a signator to that----
    Mr. Palmer. And we held a hearing on that. And one of the 
points that I think we brought out here is that, how the lack 
of cooperation by these Federal agencies, and in this case, I 
would say at the IRS, has impeded investigations, have made it 
very, very difficult to get to the truth, to get to the bottom 
of these issues. Have you found that to be the case?
    Mr. George. Very rarely, especially, in all candor, under 
the current Commissioner. He's been extraordinarily 
cooperative. But I have to point out--and, again, and in all 
candor, the timing is blurred, given everything that occurred--
it wasn't until once appearing before this very committee that 
the IRS turned over a training chart--and I'm not relating to 
the email investigations, the overall exempt organizations 
investigation. And at that time, reviewed, audit. So it was not 
an investigation, so they were not compelled to provide us that 
information, but they neglected to.
    And so while it showed us--it showed that we may not have 
considered something that we were unaware of. They were not 
required to provide that information to us. And so that's a 
long-winded way of saying, in that instance they didn't share 
information with us that they knew existed, and so that is one 
of the reasons why I agreed to put my name to that letter.
    Mr. Palmer. Well, thank you for elaborating on that.
    But my concern about this is, is that whether they didn't 
provide it because they weren't asked, I find it inconceivable 
that they would be unaware of the investigation and of the need 
to turn over every document that might have some relevance to 
this, and whether they intended to obstruct or impede, or 
whether it was by benign neglect or incompetence is irrelevant, 
because at the end of the day, the objective to get to the 
truth. It is nonpartisan, in that respect. It's incumbent upon 
us, in this committee and in your office, to pursue the truth.
    I think that's the key point here. It doesn't matter how 
many emails you've gone through, what's been reported in the 
media. The media, that's irrelevant. What's relevant is whether 
or not any wrongdoing has occurred, and that you be able to do 
your job as inspector general and get to the truth.
    Thank you, Mr. Chairman. I yield the balance of my time.
    Chairman Chaffetz. Thank you.
    We now recognize the gentleman from Georgia, Mr. Hice, for 
5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    All right. The directive goes out to stop destroying the 
tapes, or erasing the tapes in May of 2013. Yet, we know that 
they are still being erased in 2014. And yet, what I'm trying 
to wrap my mind around is the fact that you've said you found 
no reason to believe that there was any intentional criminal or 
obstructive behavior.
    So why in the world were the orders from May of 2013 not 
followed?
    Mr. Camus. Through our interviews of the IRS employees 
involved under oath and the review of their email, concurrent 
email with the issue, it appears that they had a manifest 
misunderstanding of the directive. There was a misunderstanding 
at the management level because they--they didn't know whether 
or not this pertained to just hard drives, they didn't know 
whether it just contained----
    Mr. Hice. All right. Let's go on from here. I get your 
point.
    Were there ever any orders to reinstate the destruction of 
tapes?
    Mr. Camus. No, sir.
    Mr. Hice. All right. So there was a clear directive to stop 
destroying the tapes. There was never orders to begin 
destroying tapes again. How in the world can your investigation 
determine that there was no criminal activity?
    Mr. Camus. One of the elements of most criminal statutes is 
a willfulness prong, and the challenge in any criminal 
investigation is the willfulness. You need to gather the 
evidence that shows that when these two lower-graded employees 
introduced the 424 tapes----
    Mr. Hice. All right. Let's go beyond the lower-grade 
employees.
    Mr. Camus. All right.
    Mr. Hice. If there was no willful intent with them, that 
would have to mean that they were not fully aware of what the 
orders were. You stated earlier that the managers of the IRS 
clearly were responsible. They were responsible to know the 
orders. They were responsible to know the orders. They were 
responsible to pass those orders down. So have you determined 
from that that there could potentially be any criminal activity 
among the managers or anyone above the lower grade?
    Mr. Camus. There does not appear to be any evidence that 
they willfully, improperly executed their duties.
    Mr. Hice. Mr. Camus, you yourself, just a few moments ago 
before the break, said that this is an unbelievable set of 
circumstances that led to the destruction of these tapes. And I 
have to agree with you. It's unbelievable. The truth is not 
being told here. The directive could not be more clear than 
what it was. And yet, tapes were still, nonetheless, destroyed. 
So the truth is not being told. Why is there not some sort of 
criminal investigation underway?
    Mr. Camus. The investigation at hand was a criminal 
investigation conducted by criminal investigators who had the 
authority to place people under oath and bring criminal charges 
to the Department of Justice. My agents, during the interviews 
of all these folks and, again, with support of the 
contemporaneous email traffic between them, came to the 
conclusion that there was no willfulness by these employees or 
managers----
    Mr. Hice. Just based upon what they said. So that what they 
said under oath was, we didn't mean to do this. But all the 
circumstances, even in your own words, it's unbelievable.
    Mr. Camus. It is.
    Mr. Hice. What they are saying is unbelievable. It's 
unbelievable to us. The truth is not being told. And in your 
own words, what you have been told is unbelievable. If it's not 
believable, that means it's not the truth. And at some point, 
we've got to get to the bottom of this because the truth is not 
being told. And we and the American people are sick and tired 
of being snookered, of being taken by our government, and I 
believe it's time that your investigation steps it up.
    Did you interview Kate Duval?
    Mr. Camus. Yes, sir, we did.
    Mr. Hice. Okay. When was she informed that the tapes had 
potential emails of interest from Lois Lerner?
    Mr. Camus. I believe she had already departed the Internal 
Revenue Service when we obtained the emails off the tapes.
    Mr. Hice. Did she take any action to stop the destruction 
of tapes?
    Mr. Camus. Not to our knowledge, she did not.
    Mr. Hice. But she knew that the emails of interest were 
there?
    Mr. Camus. She could have known, and she certainly----
    Mr. Hice. You just said she should have, that she did know.
    Was she reprimanded in any way?
    Mr. Camus. I'm not aware if she was reprimanded, sir.
    Mr. Hice. Do you know if--you said a moment ago that she is 
no longer with the IRS. Do you have any idea if she stepped 
down from her position willfully, or if she was pressured in 
any way or if she was potentially running from criminal charges 
herself?
    Mr. Camus. I don't have that information other than she 
left the Internal Revenue Service.
    Mr. Hice. On her own?
    Mr. Camus. On her own.
    Mr. Hice. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    I now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman. Appreciate your 
patience in coming from a markup.
    This is a huge issue, not just because it's called on in 
the press, but this issue comes down to integrity as well as 
credibility. I appreciate what's been shared of what I've heard 
so far today.
    A couple things that I'd like to address. And just to make 
sure that I'm clear, in your investigation, did we examine the 
circumstances under which the IRS informed Congress about the 
missing emails? Could you take a minute and address that?
    Mr. Camus. Yes. We're privy to the production that IRS has 
been through. We've observed the hearings, the various hearings 
that have been held by this committee and others where they 
testified about their efforts to produce emails. So we're well 
aware of the fact that there have been promises made. There 
have been obligations to provide the material. Is that 
responsive?
    Mr. Walker. Yeah, I think it does. Let me delve a little 
deeper, if I could.
    Is there concern that the Treasury Inspector General for 
Tax Administration did not learn directly from the IRS that the 
Lerner emails were supposedly lost?
    Mr. Camus. That's correct. We did not learn of that until 
June 13, 2014, at the same time everybody else did.
    Mr. Walker. Can you expound on why. Why the delay?
    Mr. Camus. They shared with us the same information they 
shared with everybody else why they delayed it, when they knew 
in February of 2014 there were missing emails. The explanation 
was they spent the time between February and when they made 
notification in June allegedly looking for emails.
    Mr. Walker. All the time, though, under the guise as far as 
trying to deliver what they did find. So we don't really know 
the place--how much of that was posture, how much of that, hey, 
we discovered it. Let's sit down and figure out the best 
strategy, the best tactic. Or if it was late in the game when 
they found them a week later. Is there any evidence to support 
when exactly the evidence was found?
    Mr. Camus. The only evidence that I'm aware of that was 
found is whenever we initiated our investigation and we 
recovered the first set of tapes, and then learning after 
having them examined that there were emails on them.
    Mr. Walker. Well, then, let's look at precedence then for a 
moment. Is it customary for the Treasury Inspector General for 
Tax Administration, TIGTA, if you will, to hear about 
significant issues like the missing emails from a letter sent 
by the IRS to the Senate. Is that--talk to me about protocol 
with your experience.
    Mr. Camus. A case this significant of this interest to all 
parties, I would have expected that it would've been reported 
to us when they determined that there was a loss of these 
emails because it was pertinent to so many ongoing 
investigations.
    Mr. Walker. And, which, I guess, answers my next question. 
I don't want to put words in your mouth, but there would be 
concern that you did not learn sooner of these problems given 
that the IRS knew the Lerner emails were unrecoverable as early 
as February of 2014; is that fair?
    Mr. Camus. That would be fair.
    Mr. Walker. Okay. Finally, have you brought any of these 
concerns to the attention of Mr. Koskinen; and if not, why not?
    Mr. Camus. We haven't shared the results of our findings or 
our major concerns because we're not quite finished with the 
report of investigation. When we are finished with that 
document, he will get a copy, and he will be briefed about the 
management failures and the observations that we had and our 
concern about not being properly notified in a timely manner.
    Mr. Walker. So we don't know whether he's aware of what 
you're finding as sort of this go-long process as you're 
discovering, so there's been no official release of information 
back to Mr. Koskinen. Is that--yes or no?
    Mr. Camus. Occasionally, we would give him an update like 
we did the committees, inasmuch as we were talking to his 
senior managers and his staff, and we would let him know, in 
our efforts to recover emails, how we were come along. So other 
than just the general, occasional status like we did with the 
committees----
    Mr. Walker. Right.
    Mr. Camus. --we weren't providing him a blow-by-blow.
    Mr. Walker. Mr. George, did you have something to add to 
that?
    Mr. George. I would just reiterate that he is aware of the 
general findings but no conclusions yet, and that will be 
forthcoming.
    Mr. Walker. Well, can I get the word on it today that we 
will make sure that you guys will inform Congress as soon as 
you encounter difficulties in obtaining information indirectly 
from the IRS? Will you let us know promptly with that?
    Mr. Camus. Yes, sir.
    Mr. George. As long as 6103 permits it, we certainly will.
    Mr. Walker. Fair enough. With that, I yield back, Mr. 
Chairman.
    Chairman Chaffetz. Thank the gentleman.
    We will now recognize the gentleman from Oklahoma, Mr. 
Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    We've established from your investigations that tapes were 
not sent to the labs; laptops were not examined; BlackBerrys 
were not examined. In June of 2014, the IRS in testimony in 
letters stated that it left, ``no stone unturned,'' to recover 
the emails. Was that true?
    Mr. Camus. We went through a series of logical steps with 
due diligence, and we were able to recover emails. So it would 
appear that that statement----
    Mr. Russell. That statement was not true.
    July of 2014, IRS officials testified that it was possible 
that Lois Lerner's emails were recoverable on discovered backup 
data, tapes, other things that you've explained here today. 
Were the tapes being erased after July of 2014?
    Mr. Camus. We're not aware that----
    Mr. Russell. Degaussed?
    Mr. Camus. Yeah, our understanding is that the tapes in 
question that would have contained the relevant material were 
erased or degaussed on March of 2014. June of 2014, they 
reportedly stopped erasing all media and came into compliance 
with the chief technology officer's directive.
    Mr. Russell. In that same month, July 2014, IRS officials 
testified to the Senate Finance Committee, the House Ways and 
Means Committee, and the Oversight and Government Reform 
Committee here that it, ``confirmed the emails were 
unrecoverable.'' Given then that these tapes had--the 
degaussing or whatever had been stopped, given that recoverable 
data still existed on the tapes, was that statement true?
    Mr. Camus. It would not appear to be true.
    Mr. Russell. It would not appear to be true.
    February 2015, Commissioner Koskinen declared that he had, 
``confirmed the emails were unrecoverable.'' And that there 
were, in his words, ``no way,'' to recover them. Was that true?
    Mr. Camus. That would not appear to be true.
    Mr. Russell. That would not appear to be true.
    We have established here today multiple incidents where the 
IRS did not tell the truth. Worse, the First Amendment 
protections on targeted groups were violated, even stated by 
Lois Lerner in a public forum. There has been no accountability 
of individuals misleading Congress and making untrue 
statements, which we've established here. In hearings this 
week, we're seeing a trend whereby government agencies do a 
magnificent job of safeguarding data and emails from the 
government, but allow our enemies to breach them with skill.
    And this is a grotesque double standard on the rights of 
American citizens. If they use the same untrue statements on 
records provided to an IRS audit, they would likely be brought 
up on charges. If an American citizen used this same standard, 
making untrue statements, saying, well, I thought that was the 
case but maybe it wasn't, but I don't have the records and I 
can't send them to you. There would be fines and prosecutions, 
more than likely.
    We urge you to use a similar standard in holding the IRS 
accountable for those that have lied to Congress in your 
investigations to resolve and restore confidence that our 
government can act with integrity, and act constitutionally on 
behalf of the American people. You, in your auditing capacity 
and your investigative capacity, have that responsibility that 
I know you take seriously.
    But we need to restore that confidence to the American 
citizens of this country. And I urge you to hold these people 
that have lied to Congress to account.
    Mr. Chairman, I yield back my time. 
    Mr. Cummings. Gentleman yield just for one question?
    Mr. Russell. Yes.
    Mr. Cummings. Mr. Camus, I want to make sure I'm clear 
because you just accused the Commissioner of a crime.
    Mr. Camus. That was not my intention, sir.
    Mr. Cummings. No. No. I'm not--I'm not arguing with you. I 
want to make sure the record is clear. You said that--in answer 
to a question, you said that he lied to Congress. Is that what 
you told us?
    Mr. Camus. No.
    Mr. Cummings. Well, you need to clear that up one way or 
another. I mean, whatever. I just want it to be clear. Because 
you've now put in a very interesting situation. We're just 
searching for the truth. Go ahead.
    Mr. Camus. Thank you. Thank you, Mr. Chairman, for the 
opportunity to clarify. I was asked a series of questions that 
based on our investigation, we found things that were said 
earlier were not there. Anytime you make an allegation or if 
you prove--to prove a false statement, there is again a 
willfulness prong in that. You have to understand that somebody 
willfully gave information that they knew was not to be true. 
So I'm not alleging that the Commissioner willfully gave any 
information that he knew at the time he gave it not to be true. 
That's--if that helps clarify.
    Mr. Cummings. It clarifies. And thank you.
    Chairman Chaffetz. But----
    Mr. Camus. And I apologize.
    Chairman Chaffetz. But, if the gentleman will let me yield, 
but it wasn't true. Was it?
    Mr. Camus. We found emails that they did not. Now----
    Chairman Chaffetz. They did not what?
    Mr. Camus. That they did not find them and our 
investigation showed that they did not look for them. But I am 
not alleging that the Commissioner made false statements at 
this point. I'm not. So thank you for the opportunity.
    Chairman Chaffetz. We'll have to have that debate and that 
conclusion, but I think it is pretty crystal clear, and I 
appreciate that.
    Mr. George. I think what Tim meant, willfully, that's the 
issue. We don't know whether it was a willful statement on the 
part and effect that Commissioner Koskinen knew exactly what 
they had or had not done. We don't know that unless you have 
contrary information.
    Chairman Chaffetz. And if I can continue on for a second, 
Mr. Koskinen is very aggressive in making sure that he is the 
only one that comes and testifies before this committee. He's 
the only one that comes and testifies before Congress because 
he feels like he's got the best grip on his organization and he 
doesn't want anybody else to come testify. That is routinely--
we had to bring--we had to issue a subpoena to have one other 
person come testify before our committee on the IRS.
    So, again, we'll have that debate. You're here to present 
us the facts. I think you presented those facts. I know you're 
not trying to come to the conclusion. That is for us to debate.
    Mr. Cummings. Just one thing.
    Chairman Chaffetz. Sure.
    Mr. Cummings. Was there evidence that it was willful, any 
willful criminal act, lying to Congress?
    Mr. Camus. We found no willfulness throughout our 
investigation.
    Mr. Cummings. And just one last question. At the end of 
your investigation, if you did find it, would that--if you did 
find that, would that be a part of your report?
    Mr. Camus. Yes. It would.
    Mr. Cummings. Very well. We look forward to your report.
    Chairman Chaffetz. I assume, Mr. Russell yields back at 
this point, and his time is well expired, but thank you.
    Mr. Russell. Thank you very much. Thank you.
    Chairman Chaffetz. All right. We now go to the gentleman 
from Wisconsin, Mr. Grothman, for 5 minutes.
    Mr. Grothman. Thanks much.
    I guess this question's for either one of you. You know, 
the Department of Justice announced they've been conducting 
their own investigation. Are you still participating with the 
DOJ's investigation of the targeting of conservative nonprofit 
groups?
    Mr. George. I'm going to ask Tim to elaborate, but their 
investigation is ongoing, but----
    Mr. Camus. Yes, sir. We are still participating in that 
effort.
    Mr. Grothman. Okay. It was implied before that the 
investigation is nearing completion, I think by Justice. Is 
that true as far as you know? Or can you give us any status as 
to when you think this is going to wrap up?
    Mr. Camus. I don't know the status for the DOJ 
investigation.
    Mr. Grothman. Okay. So you wouldn't know if any criminal 
charges are going to be filed?
    Mr. Camus. I'm not aware.
    Mr. Grothman. Okay. And they made no recommendations, 
Justice, as far as you know?
    Mr. Camus. As far as I know, they have not.
    Mr. Grothman. Are you satisfied with their investigation?
    Mr. Camus. Well, our agents have shared with me it appears 
to be thorough. Like everybody else, they're waiting for the 
conclusion of this case and the conclusion of our attempt to 
find new evidence or material relative to the investigation.
    Mr. Grothman. Okay. Wouldn't it, in general, be your 
responsibility to make recommendations how to clean up the IRS 
as opposed to the Department of Justice?
    Mr. Camus. In general it would, but in this particular case 
when the whole exempt organizations application process broke, 
the President and the Attorney General at the time determined 
that the Department of Justice would be the lead investigative 
agency for that particular matter.
    Mr. Grothman. Okay. That's a little bit unusual, then. 
Normally you'd be the lead agency. Right?
    Mr. Camus. That's correct.
    Mr. Grothman. Are you satisfied that the truth is going to 
come out with the Justice leading--being the leading agency 
rather than yourself?
    Mr. Camus. I believe that because we have been involved 
that the truth will prevail. Our goal is--we are focused on the 
American people and Congress to get the American people through 
the Congress all the information that we can and we let the 
facts fall where they may and the truth fall where it may. So 
as far as that's our effort, I'm convinced if--I'm briefed by 
my agents, that they're convinced that through their efforts 
that that has occurred, and then I will take their answer.
    Mr. George. And we have received no indication, sir, that--
anything to the contrary.
    Mr. Grothman. Okay. I appreciate your professionalism. I 
will say this whole IRS thing and targeting people I think is 
having a chilling effect on America. I'm sure I'm not alone. 
When you call people, you know, for the other thing politicians 
do, this is something that gets brought up. I mean, people 
really believe right now that if they take a politically 
unpopular stand, and it's not just the IRS, it's other agencies 
as well, EPA, what have you, that if you say something that's 
politically incorrect or take a politically incorrect position, 
the full force of the government is going to come down on you, 
and that's not the way this country is supposed to be built.
    So I appreciate your professionalism and I hope you get to 
the bottom of what was really going on here so that we can do--
so the people who--the wrongdoers can be prosecuted. But thank 
you for coming over here today, and I yield the remainder of my 
time.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from North Carolina, Mr. 
Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman. And thank you for 
putting a priority on informing the American people by holding 
this hearing.
    Mr. George, on a personal note, the passion and compassion 
that you showed about caring for a loved one is not missed in 
the unbelievable difficulty of this hearing, and I just want to 
say, you know, if we could all have sons who are willing to do 
that kind of service to a family member, this world would be a 
better place. So I just want to say thank you. Thank you for 
your service.
    Mr. George. Thank you very much, sir.
    Mr. Meadows. Mr. Camus, I want to come back to you because 
I want to follow up on what the chairman was talking about. 
Because as we've started to look, this whole thing of willful 
is a very high standard. You know, you almost have to have the 
smoke coming out of the end of the gun, and yet in your 
investigation, and actually, I started reviewing Mr. Koskinen's 
statements before this committee, before the Senate Finance 
Committee, before the Ways and Means Committee, and just to 
refresh your memory, it says, ``We've confirmed the backup 
tapes no longer exist.'' ``We've confirmed that Lois Lerner's 
emails are unrecoverable.'' We had another statement that would 
indicate that they have worked diligently to find these missing 
emails. But as you have indicated, you found them in six 
different sources. Is that correct?
    Mr. Camus. That's correct, Mr. Meadows.
    Mr. Meadows. So how could, if we have these statements, how 
do you reconcile those statements with you going out and 
finding them? I mean, how do you do--how do you take someone 
who says there's absolutely no way that they exist, and then, 
according to your testimony here today, they didn't even look. 
So how could you say that that was anything other than willful?
    Mr. Camus. The issue that we have here is, as I shared 
earlier, is a management failure.
    Mr. Meadows. Okay. So--and you did. And that's where I want 
to pick up. Because if we have a management failure, one thing 
that hasn't been talked about yet is these backup tapes are 
held in just a handful of locations. Is that correct?
    Mr. Camus. Yes, sir.
    Mr. Meadows. So in a handful of locations a memo goes out. 
How in the world would those handful of locations not have 
gotten the memo that they needed to be preserved?
    Mr. Camus. Our evidence shows that they did, in fact, 
receive the directive from Mr. Milholland.
    Mr. Meadows. So a handful of organizations, all of them got 
the memo and then decided not to follow it?
    Mr. Camus. The evidence shows from interviews and looking, 
again, at contemporaneous email traffic between the various 
parties, that when they got when--when they received the 
directive from Milholland, they were confused as to what it 
actually encompassed. So----
    Mr. Meadows. Yeah. And I guess that's hard because if I 
give this to a fifth grader, they--you know, and I know it's 
harder to be smarter than a fifth grader, but if I give it to a 
fifth grader to not destroy backup tapes, I don't know how much 
simpler it can be. Do you, Mr. Camus? Do you see the ambiguity, 
I guess, is what I'm saying?
    Mr. Camus. I couldn't agree with you more, Mr. Meadows.
    Mr. Meadows. Okay. So if that's the case, who's going to be 
held accountable? Who's going to lose their job? Who's going to 
restore or start to restore the confidence in this agency by 
the American people? Because we've been hearing after hearing 
after hearing that we've looked, we've searched, we can't find, 
and yet you found them. So who's going to be held accountable? 
Who, in your opinion, should be held accountable, let me 
rephrase it?
    Mr. Camus. Well, it's just an opinion. There are many, many 
people in this situation who should be held accountable.
    Mr. Meadows. So will that be in your report or can you get 
that to the committee on who should held accountable?
    Mr. Camus. Our general process is----
    Mr. Meadows. We need you to name names, I guess is what I'm 
saying, Mr. Camus.
    Mr. Camus. There will be names in that report, and there 
will be documents of each of the interviews, and I'm sure that 
various people have come to various conclusions.
    Mr. Meadows. Okay. So last question. How is it that the 
inspector general can find things that the IRS can't find, that 
DOJ can't find? Should we put you in charge of DOJ and 
auditing?
    Mr. Camus. We just work very, very hard. We're proud of our 
mission, which is to restore and keep the American people's 
confidence in the Internal Revenue Service. We take our job 
seriously, and I have an outstanding staff of men and women who 
do that work every day.
    Mr. Meadows. Indeed you do. Thank you so much.
    I yield back, Mr. Chairman. I thank you.
    Chairman Chaffetz. I thank the gentleman.
    I'll now recognize myself.
    So let's go back to 2011. It's June 3, 2011. Dave Camp, 
chairman of the Ways and Means Committee sends a letter to the 
IRS inquiring about what's going on with the targeting. We 
think that that letter arrives on June 6. We're just guessing. 
And then mysteriously, Lois Lerner's computer, it crashes on 
June 11. What a coincidence. Unbelievable. Right? Just 
unbelievable. Days later it crashes. It's reported on June 13. 
So it crashes on a Saturday at the IRS. You know precisely, as 
best you can tell, precisely where that is. There--I would 
guess there's presumably some sort of card reader that would 
tell who was on the floor, who was in that area. Did you look 
at that?
    Mr. Camus. Yes, sir, we did. Unfortunately, the vender who 
had the security contract for that building routinely destroys 
their prox card logs after a one-year period of time. So 
unfortunately for this investigation, sometime in 2012, the 
proxy logs were overwritten.
    Chairman Chaffetz. They were degaussed? Is that what 
happened? They degaussed the card readers?
    Mr. Camus. The records were not available to us. We--we 
looked and we were very hopeful that we would be able to get 
those records.
    Chairman Chaffetz. Because it's a Saturday. There aren't 
going to be many people there, I'm guessing. And it just begs 
the question why? Why is this the policy? The whole reason you 
do the card reader is to prohibit some access, but that you 
have a record. And here we have a very serious investigation, 
and those records were degaussed. So it's just so frustrating 
that--that way.
    When will you issue this report? I know you're right on the 
verge of this. Do you have a specific date as to when this will 
be issued?
    Mr. George. We made a commitment to the Senate Finance 
Committee to have it by the end of this month.
    Chairman Chaffetz. So Tuesday or so?
    Mr. George. That is our commitment, and so unless there's a 
change because of additional interviews--and that's part of the 
problem, Mr. Chairman. There are subsequent, you know, 
interviews that will have to occur and additional work, and 
review of, again, emails.
    So as I indicated in my opening statement today, as did Mr. 
Camus, you know, we might have to issue a supplemental report, 
depending upon what additional information comes out. But, 
again, the results of investigation--report of investigation we 
made a commitment to issue by the end of this--so, yes, next 
week.
    Chairman Chaffetz. Okay. Now I'd like to yield to the 
gentleman from Ohio, Mr. Jordan.
    Mr. Jordan. I thank the chairman.
    Mr. Camus, I'm going to go right back to where Mr. Meadows 
was. How many places, physical locations, were the tapes 
erased? How many are there? You said a handful, but what does 
that mean? One, two, three spots?
    Mr. Camus. I believe there are four or five locations where 
the emails are centralized.
    Mr. Jordan. Okay. Four or five places. So let's say there's 
four places, actual physical locations where they take the 
tapes and erase what's on them. How many people work in those 
four locations?
    Mr. Camus. Dozens, you know, in each location. I have a 
list here, Mr. Jordan, that--but for me to sit here and count 
them, I don't want to waste your time.
    Mr. Jordan. How many who work in those actually erase the 
tapes, though? I mean, I got the picture in my mind, maybe it's 
wrong, is you got, you know, Joe and Fred in the basement 
taking the tapes, putting them in some kind of machine and 
erasing them. How many people actually do that? We know it's 
four locations. How many people do the actual erasing?
    Mr. Camus. In this particular case, we know that there were 
two employees involved in the erasure of the 424 tapes on a 
midnight shift. So I imagine they're running three shifts per 
location. So that would be----
    Mr. Jordan. Six people times four, 24.
    Mr. Camus. Yeah, 24 to 30 people, maybe.
    Mr. Jordan. So we're talking 24, and if it's five 
locations, we're talking 30 people. Right? So one of those--
some of those 30 people, they're the ones responsible. They got 
the directive. They knew there was a subpoena. They probably 
read the newspaper. They know this is an issue. Are any of 
those people, back to Mr. Meadows' question, are any of them 
going to be punished?
    Mr. Camus. At this time I don't know. We are continuing an 
investigation on an aspect of this, which is a discrepancy over 
the way that some of the material was counted and----
    Mr. Jordan. Because you said they got the directive. Those 
30 people at five locations where they destroyed the evidence, 
they got the directive that they weren't supposed to destroy 
it. Correct?
    Mr. Camus. The locations for sure got the directive through 
the management chain. But for me to surmise whether or not each 
of the locations, the people responsible for erasing tapes got 
it, I couldn't testify to that.
    Mr. Jordan. In your investigation, two final questions. 
Okay, Mr. Chairman? In your investigation, did anyone from the 
top level of the IRS, Mr. Koskinen, Kate Duval, did anyone at 
the top levels of the IRS talk to those 30 people?
    Mr. Camus. Specifically not to my knowledge, especially 
at----
    Mr. Jordan. So the 30 people responsible for erasing the 
evidence were never communicated to by the head of the IRS?
    Mr. Camus. Yes. That's correct.
    Mr. Jordan. Yes. That's correct. They were not--they never 
talked to them. Never talked to the key people who got the 
directive not to destroy evidence who destroyed evidence, Mr. 
Koskinen never talked to them?
    Mr. Camus. That's correct.
    Mr. Jordan. Finally, Mr. Chairman, and yet, Mr. Koskinen 
sat where you set and gave false information to this committee. 
Correct? When he said I can give you assurances that we're 
going to give you all the emails.
    Mr. Camus. He may have told you that under oath and made 
assurances to you----
    Mr. Jordan. And that was a false statement based on your 
investigation. Correct, Mr. Camus?
    Mr. Camus. Our investigation showed that he depended 
heavily on his senior managers to carry out----
    Mr. Jordan. The same people he didn't go talk to those 30 
key people. All I'm saying is is what Mr. Koskinen told this 
committee and the American people, was it a true statement what 
he said under oath sitting in that chair right there?
    Mr. Camus. I don't know what he did. I know he----
    Mr. Jordan. No, no. We've portrayed what--we've told you 
what he said. He said, ``I can assure you I'm going to get you 
all the information.''
    Mr. Camus. And I believe he went back to his senior staff 
and told them to do so.
    Mr. Jordan. I'm not asking why he said it. I'm asking is 
what he said--was what he said truthful?
    Mr. Camus. I know he didn't talk to the people who 
destroyed the tapes. I do understand that he told his senior 
staff to comply with the investigation.
    Mr. Jordan. All right. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thanks. Now recognize the gentleman from 
Maryland, the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    We have spent a phenomenal amount of time talking about 
conservative groups, and certainly I'm concerned about them, 
but I'm also concerned about all Americans.
    Back on May 23, Mr. George, 2013, you appeared before the 
committee and we asked about progressive groups. You said that 
you were looking--going to be reviewing some 600 files, and I'm 
just wondering, what have you found out about the other 
American groups, the progressives?
    Mr. George. Yes. We have a review underway looking at that 
very issue, sir, as to how other groups, progressives and the 
like, are being--were treated in the handling of their 
applications for tax-exempt status. Unfortunately, a lot of the 
information that would be needed to complete that review has--
is being stymied or stalled until the review of the missing 
emails is done because there is a--there's a number of overlaps 
in terms of individuals. And, in addition, a lot of the key 
players involved in that process have since retired, or left 
the IRS in the wake of the initial report and review. So we are 
still committed to doing that. We have started preliminary work 
on it.
    Mr. Cummings. Will that be a part of your report?
    Mr. George. It will be a separate report. But, you know, 
we're not sure whether it will be an addendum to the original 
audit or whether it would be a stand-alone report because of 
some of the missing people under the Yellow Book standards. We 
might or might not be able to issue an actual audit that would 
be accepted by the general auditing community. So it might have 
to be an evaluation or an inspection. But the bottom line is we 
are going to look at that issue. We are going to determine how 
the IRS treated progressive groups and the like, and I'm using 
that term writ large.
    Mr. Cummings. So it's been a year now, over a year, and you 
say people have left, and more people will probably leave. So 
it doesn't make it any better. Does it? I mean, of the 600 
cases, you mean, you don't have any conclusions with any of 
those with regard--you said you had 600 files you're going to 
be looking over?
    Mr. George. Yeah. But I'm, sir, also being reminded that if 
the DOJ investigation is hindering our ability to talk to 
people. So our hands are tied, unfortunately, and----
    Mr. Cummings. I just want to make sure, you know, again, we 
have spent a phenomenal amount of time talking about 
conservative groups. And I'm concerned, like I said, but, I 
mean, what about all these other groups? That's--it seems like 
they're getting second rate review here. And I'm not knocking 
you. I understand there are problems, but it seemed like there 
would have been some conclusions about--out of the 600, some of 
them.
    Mr. George. Well, to keep into mind too that our initial 
review was how political advocacy groups were being treated.
    Mr. Cummings. Right.
    Mr. George. And if--we have results from that, and the vast 
majority of groups that were adverse--that were, you know, had 
inappropriately--had inappropriate questions and the like 
delivered to them, were found to be groups that were leaning 
not to the left--you know, I'm trying to be very diplomatic as 
to how I word this for fear of, you know, one, I don't want to 
used the word ``targeting'' in this context----
    Mr. Cummings. I understand.
    Mr. George. --because it's too early to know exactly what 
was done. But as we know, the vast majority of the cases in the 
political advocacy area at the IRS was slowing down their 
application processes, asking what we believe were 
inappropriate questions and the like, were groups that were not 
deemed, at least on their face, progressive. They were more--
more on the conservative----
    Mr. Cummings. Now, you testified in February that Ms. 
Lerner's computer had crashed on June 13, 2011, and the next 
day, she sent a contemporaneous email to colleagues confirming 
that fact. Do you recall that testimony?
    Mr. George. I know that that's in this current testimony.
    Mr. Cummings. Is that right?
    Mr. George. Yeah.
    Mr. Cummings. Okay. And you further testified that more 
than 2 weeks later, Ms. Lerner received a briefing on June 29, 
2011 informing her that IRS employees in Cincinnati were 
screening applications using the term such as ``Tea Party'' and 
``9/12.'' Is that right?
    Mr. George. That's my understanding.
    Mr. Cummings. And according to your May 20, 2013 report 
when Ms. Lerner became aware of these inappropriate search 
teams, she, ``immediately directed that the criteria be 
changed.'' Did anything in your investigation call that 
conclusion into question, Mr. George?
    Mr. George. Not to my knowledge, no. But, again, keep in 
mind we did conclude shortly thereafter that that practice 
resumed. And so she didn't--you know, she may have requested 
that it cease, but her instructions were not followed.
    Mr. Cummings. And so you also confirmed that Ms. Lerner's 
computer crashed before your office started any investigation. 
Specifically you were asked ``At the time of Ms. Lerner's 
computer crash, had TIGTA commenced its audit of the IRS 
employees' handling of applications for tax-exempt status?'' 
Your response was, ``No. No. It hadn't begun.'' Do you recall 
that, Mr. George.
    Mr. George. Vaguely.
    Mr. Cummings. And, Mr. Camus, you testified that the IG's 
office did not begin reviewing the circumstances surrounding 
Ms. Lerner's lost emails until June 16, 2014. Do you recall 
that testimony?
    Mr. Camus. Yes, sir. I do.
    Mr. Cummings. Now that the investigation is essentially 
complete, does the timeline we just discussed still hold true?
    Mr. Camus. As far as our investigation goes, it would still 
hold true.
    Mr. Cummings. Mr. Camus, did the investigation reveal any 
evidence that Ms. Lerner saw 3 years into the future and knew 
you would one day investigate the loss of her emails?
    Mr. Camus. The investigation did not show that.
    Mr. Cummings. All right. I yield back.
    Chairman Chaffetz. Gentlemen, we want to thank you for your 
work, the work of the inspector general's office. Good people 
working hard looking at an awful lot of paperwork, and we do 
appreciate it. We look forward to seeing your final report, but 
please pass the word back to them how much we do appreciate 
their work. How much we rely on it as a body and as an 
institution and as a committee.
    And with that, this committee will stand adjourned.
    [Whereupon, at 12:07 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]              
               
                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
